U.S. Small Business Administration
Office of Inspector General

 _________________________________


       Semiannual Report to Congress
               Spring 2009




       October 1, 2008 – March 31, 2009
  Inspector General Act Statutory Reporting Requirements


The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended, are
listed below.


Source                                                                                       Page

Section 4(a)(2)    Review of Legislation and Regulations                                         23

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                              3-23

Section 5(a)(2)    Recommendations with Respect to Significant Problems,
                   Abuses and Deficiencies                                                    34-36

Section 5(a)(3)    Prior Significant Recommendations Not Yet Implemented                      31-33

Section 5(a)(4)    Matters Referred to Prosecutive Authorities                                45-53

Sections 5(a)(5)   Summary of Instances Where Information Was Refused                         None
and 6(b)(2)

Section 5(a)(6)    Listing of OIG Reports                                                        26

Section 5(a)(7)    Summary of Significant Audits & Other Reports                               3-23

Section 5(a)(8)    Audit Reports with Questioned Costs                                           27

Section 5(a)(9)    Audit Reports with Recommendations that Funds Be Put to
                   Better Use                                                                    27

Section 5(a)(10)   Summary of Reports From Prior Semiannual Reports
                   Where No Management Decision Was Made                                         28

Section 5(a)(11)   Significant Revised Management Decisions                                   None

Section 5(a)(12)   Significant Management Decisions with Which
                   the OIG Disagreed                                                          None

Section 5(a)(13)   Information Described Under Section 05(b) of the Federal
                   Financial Management Improvement Act of 1996                                N/A
                                                           Table of Contents

Overview of SBA and the OIG............................................................................................................................. 1

Management Challenges....................................................................................................................................... 3

Recovery Oversight .............................................................................................................................................. 5

Disaster Loans ...................................................................................................................................................... 6

Small Business Access to Capital ....................................................................................................................... 10

Small Business Development, Contracting, Education, and Training ................................................................ 16

Agency Management .......................................................................................................................................... 18

Other Significant OIG Activities. ....................................................................................................................... 22

Statistical Highlights........................................................................................................................................... 24

Appendices

        I.         OIG Reports Issued ........................................................................................................................ 26

       II.         OIG Reports with Questioned Costs .............................................................................................. 27

      III.         OIG Reports with Recommendations that Funds Be Put to Better Use ......................................... 27

     IV.           OIG Reports with Non-Monetary Recommendations .................................................................... 28

       V.          OIG Reports from Prior Semiannual Periods with Overdue Management
                    Decisions as of March 31, 2008.................................................................................................. 28

     VI.           OIG Reports Without Final Action as of March 31, 2009 ............................................................. 29

    VII.           Summary of Significant Recommendations from Prior Semiannual Reporting
                     Periods Without Final Action as of March 31, 2009................................................................... 31

   VIII.           Summary of Significant Recommendations,
                     October 1, 2008 through March 31, 2009 ................................................................................... 34

     IX.           Events/Activities Where SBA Used its Cosponsorship Authority,
                    October 1, 2008 through March 31, 2009 ................................................................................... 37

       X.          Legal Actions Summary, October 1, 2008 through March 31, 2009.............................................. 45

      XI.          OIG Organizational Chart .............................................................................................................. 55




                                                                                  i
                                             Table of Contents

Additional Semiannual Legislative Reporting Requirements from the Small Business Act, as Amended:

        SBA Cosponsorship and Fee-Based Administration-Sponsored Events—Small
        Business Act, Section 4(h) ............................................................................................................. 20

        SBDC Surveys—Small Business Act, Section 21(a)(7) ................................................................ 16

        SBA Gift Authority—Small Business Act, Section 4(g)(2)........................................................... 20




                                                                   ii
                                     Glossary of Abbreviations

ATF       .................................................................... Bureau of Alcohol, Tobacco, Firearms, and Explosives
C&A       ...........................................................................................................Certification and Accreditation
CDC       ....................................................................................................... Certified Development Company
CFO       ....................................................................................................................... Chief Financial Officer
CID       ..........................................................................................................Criminal Investigative Division
CIO       ...................................................................................................................Chief Information Officer
COC       ..................................................................................................................Certificate of Competency
COTR      .................................................................................Contracting Officer’s Technical Representative
DCMS      ..................................................................................................Disaster Credit Management System
DHS       ..................................................................................................... Department of Homeland Security
DOJ       ......................................................................................................................... Department of Justice
EPA       ......................................................................................................Environmental Protection Agency
EVM       .................................................................................................................Earned Value Management
FBI       ..........................................................................................................Federal Bureau of Investigation
FISMA     ................................................................................. Federal Information Security Management Act
GAO       .................................................................................................... Government Accountability Office
HHS       ....................................................................................... Department of Health and Human Services
HSPD      ..........................................................................................Homeland Security Presidential Directive
HUBZone   .......................................................................................... Historically Underutilized Business Zone
HUD       ...................................................................................................... Housing and Urban Development
IDMS      ............................................................................................................. Identity Management System
IPIA      .................................................................................................. Improper Payments Information Act
IRS       ....................................................................................................................Internal Revenue Service
IT        ..................................................................................................................... Information Technology
NCIS      ................................................................................................. Naval Criminal Investigative Service
NGPC      ....................................................................................................National Guaranty Purchase Center
OCA       .....................................................................................................................Office of Capital Access
ODA       ..............................................................................................................Office of Disaster Assistance
OIG       ................................................................................................................ Office of Inspector General
OGC       .................................................................................................................. Office of General Counsel
OMB       .....................................................................................................Office of Management and Budget
PIV       .............................................................................................................Personal Identity Verification
POA&M     ............................................................................................................Plan of Action and Milestones
SBA       ...........................................................................................................Small Business Administration
SBDC      ..................................................................................................Small Business Development Center
SBIC      .................................................................................................Small Business Investment Company
SCORE     .................................................................................................. Service Corps of Retired Executives
SDB       ........................................................................................................... Small Disadvantaged Business
SOP       .......................................................................................................... Standard Operating Procedures
WBC       .................................................................................................................. Women's Business Center




                                                                      iii
                           Overview of SBA and the OIG

The Small Business Administration

The mission of the Small Business Administration (SBA) under the Small Business Act, as amended, is to
maintain and strengthen the Nation’s economy by enabling the establishment and vitality of small
businesses and assisting in the economic recovery of communities after disasters. The Agency’s current
strategic plan has three programmatic strategic goals that broadly define what the Agency and its
programs are trying to accomplish.

     Expand America’s ownership society, particularly in underserved markets.

     Provide timely financial assistance to homeowners, renters, nonprofit organizations and
      businesses affected by disaster.

     Improve the economic environment for small business.

A fourth goal in SBA’s strategic plan defines the responsibility of the Agency’s executive leadership and
support functions to help accomplish the three programmatic goals.

     Ensure management and organizational excellence to increase responsiveness to customers,
      streamline processes, and improve compliance and controls.

SBA is organized around four key functional areas: financial assistance (e.g., loan programs); contracting
assistance; technical assistance (e.g., entrepreneurial development); and disaster assistance. The Agency
also represents small businesses through an independent advocate and an ombudsman. SBA headquarters
is located in Washington, D.C., while its business products and services are delivered with the help of
10 regional offices, 68 district offices, 4 disaster field offices, and a vast network of resource partners in
all 50 states, the District of Columbia, Puerto Rico, American Samoa, the U.S. Virgin Islands, and Guam.
As of March 31, 2009, SBA had 2,193 employees, including Office of Inspector General (OIG)
personnel, but excluding a total of 2,982 disaster-funded employees for disaster loan making and disaster
loan servicing.

The Office of Inspector General

Pursuant to the Inspector General Act of 1978, as amended, the OIG adds value to SBA programs and
operations by providing auditing, investigative, and other services to support and assist the Agency in
achieving its mission. In addition to its responsibilities under the IG Act, the OIG carries out other
significant statutory responsibilities and Government-wide mandates, including responsibilities under the
Small Business Act and the Small Business Investment Act.

The OIG seeks to improve SBA programs by identifying key issues facing the Agency, following up to
ensure that corrective actions are taken, and promoting a high level of integrity. The Office’s efforts and
accomplishments during the first half of FY 2009, which are summarized in this report, focused on the
two strategic goals in the OIG’s strategic plan.

     Improving the economy, efficiency, and effectiveness of SBA programs and operations.

     Promoting and fostering integrity in SBA programs and operations.



                                                    1
                          Overview of SBA and the OIG

Using this framework, the OIG concentrated on critical risks facing SBA, including (1)risks of financial
losses due to limited oversight and controls; (2) risks to SBA's performance of its statutory mission to
promote small business development and Government contracting; and (3) risks associated with SBA's
information technology and financial management systems and other internal operations.

Audit and other reports issued during this reporting period are listed in Appendix I. Investigative actions
are summarized in Appendix X. Copies of OIG reports and other work products are available on the
OIG’s website at http://www.sba.gov/ig.




                                                  2
                        Agency Management Challenges

Overview

In accordance with the Reports Consolidation Act of 2000, the OIG each year identifies the most serious
management and performance challenges facing the
Agency for inclusion in SBA’s Performance and            The Management Challenges represent areas
Accountability Report. The Management Challenges              that the OIG considers to be particularly
represent areas that the OIG considers to be                       vulnerable to fraud, waste, abuse, or
particularly vulnerable to fraud, waste, abuse, or           mismanagement,     or which otherwise pose
mismanagement, or which otherwise pose significant        significant risk to the Agency, its operations,
risk to the Agency, its operations, or its credibility.                                or its credibility.
Each Management Challenge generally has originated
from one or more OIG or Government Accountability Office (GAO) report. For each Management
Challenge, the OIG provides the Agency with recommended remedial actions together with an assessment
of Agency progress on each recommended action during the preceding fiscal year.

FY 2009 Report on SBA’s Top Management Challenges

The Management Challenges identified in the OIG’s FY 2009 report, issued on October 20, 2008, were as
follows.

       Procurement flaws allow large firms to obtain small business awards and agencies to count
        contracts performed by large firms towards their small business goals.
       Information systems security needs improvement.
       Effective human capital strategies are needed to enable SBA to successfully carry out its mission
        and become a high-performing organization.
       SBA’s National Guaranty Purchase Center needs better controls over the business loan purchase
        process.
       SBA needs to further strengthen its oversight of lending participants.
       The Section 8(a) Business Development (BD) program needs enhanced business development
        processes, objectively defined eligibility standards, upgraded training and information systems,
        improved graduation procedures, and better oversight of contractor compliance with program
        regulations.
       Insufficient and outdated SBA controls continue the excessive risk of the Small Business
        Investment Company (SBIC) program.
       Effective tracking and enforcement would reduce financial losses from loan agent fraud.

As in prior years, the FY 2009 report used a color-scoring scheme to show the Agency’s progress in
addressing the actions needed to resolve each Management Challenge. The chart on the next page
provides a summary of SBA’s progress for each of the eight Management Challenges in the FY 2009
report. While progress on a number of the challenges has been encouraging, much more remains to be
done. By their nature, these challenges require continued long-term commitment and effort by the
Agency.




                                                  3
                     Agency Management Challenges

                     Summary of SBA’s FY 2009 Management Challenges
                                                 Status Score                         Change in Status
    Topic                         Green      Yellow Orange         Red     New     Improved Worsened
1   Small Business Contracts        1          1         2                            1
2   IT Security                     2          4                                      3
3   Human Capital                              3
4   Loan Guaranty Purchase           2         1         1                             2
5   Lender Oversight                 4         2         4                             4
6   8(a) BD Program                  1         3         1           1                 3
7   SBIC Program                     1         4                                       3
8   Loan Agent Fraud                 1                                       2         1
     Green-Implemented Yellow-Substantial progress Orange-Limited Progress Red-No progress
     “Improved” refers to an action item that showed progress this year over last year’s score.
     “Worsened” refers to an action item that showed regression this year from last year’s score.




                                                 4
                                    Recovery Oversight

Overview

The American Recovery and Reinvestment Act of 2009 (Recovery Act), which was signed into law on
February 17, 2009, contains a number of SBA provisions intended to help unlock credit markets and
promote economic recovery for the nation’s small business sector. These include reduced loan fees,
higher guaranties, new SBA credit programs, secondary market incentives, and enhancements to current
SBA programs. In order to provide enhanced levels of transparency and accountability, the Recovery Act
and related implementation guidance require increased reporting and oversight to deter and detect fraud,
waste, and abuse and ensure that program goals are met.

Given the severity of recent economic circumstances, there will be significant pressure on SBA to
expedite and maximize financial assistance to small businesses in implementing Recovery Act programs.
Past experience, such as SBA’s response to the 9-11 terrorist attacks and the 2005 Gulf Coast hurricanes,
has shown that this pressure can increase the vulnerability of SBA’s programs to fraud and unnecessary
losses. Therefore, the OIG’s oversight efforts will focus heavily on assessing the adequacy of internal
controls and detecting and deterring fraud, waste, and abuse in Recovery Act programs.

The OIG is devoting considerable effort to providing effective recovery oversight. OIG staff has met
regularly with responsible SBA officials and communication processes have been established to monitor
and provide recommendations regarding the Agency’s Recovery Act actions before they are
implemented. Two examples of OIG’s accomplishments during the six-week period between
February 17, 2009, and the end of the reporting period, are discussed below. Additional information
regarding recovery oversight activities can be found on the OIG’s website at www.sba.gov/ig/recovery.

OIG Oversight Framework

The OIG has developed an oversight framework that identifies risks associated with SBA’s
implementation of the Recovery Act, together with potential OIG oversight activities to address each of
the risks. The OIG will use this framework to guide its oversight activities, including both immediate and
long-term actions. The framework is available on the OIG’s website.

Phishing Scam

Soon after the Recovery Act became law, the OIG learned that small businesses across the country were
receiving faxed letters on SBA letterhead offering assistance in obtaining tax rebates under the legislation.
Businesses were requested to fax back bank account information to a number provided in the letter. The
letters were not authorized by the SBA, but were fraudulent attempts to obtain financial information. In
response, the OIG: (1) worked with the Agency to quickly issue a press release and Information Notice
advising small businesses of the scam; (2) located the telecommunications company that was providing
the fax number referenced in the letter, requested that the number be terminated, and received
confirmation that this had occurred; and (3) informed other OIG’s of the scam so they could look out for
similar scams in their agencies.




                                                     5
                                        Disaster Loans

Overview

The Disaster Loan program plays a vital role in the aftermath of disasters by providing long-term,
low-interest loans to affected homeowners, renters, and businesses of all sizes. There are two types of
disaster loans: (1) physical disaster loans for permanent rebuilding and replacement of uninsured
disaster-damaged privately-owned real and/or personal property, and (2) economic injury disaster loans to
provide necessary working capital to small businesses until normal operations resume after a disaster.
Physical disaster loans are available to homeowners, renters, businesses of all sizes, and nonprofit
organizations. The Disaster Loan program is particularly vulnerable to fraud and unnecessary losses
because loan transactions are expedited in order to provide quick relief to disaster victims.

In 2005, Gulf Coast Hurricanes Katrina, Rita, and Wilma caused more than $118 billion in estimated
property damage; as of March 31, 2009, SBA had disbursed nearly $6.6 billion in loans to assist the
victims of these disasters. More recently, as of March 31, 2009, SBA had approved nearly 15,000
disaster loans, totaling almost $674 million, as a result of Hurricanes Gustav and Ike and flooding in the
Midwest during 2008. The OIG’s audits and reviews continue to focus on loan origination, disbursement,
repayment, servicing, and liquidation activities related to these loans, including whether loan applications
were processed in accordance with SBA procedures; uses of loan proceeds were verified before loans
were fully disbursed; duplicate benefits were appropriately identified and recovered; and loan servicing
and liquidation activities were effectively staffed and managed. The OIG also continues to investigate
allegations of unauthorized use of loan proceeds, overstatement of financial losses, material false
statements in the application process, false/counterfeit supporting documentation, and false assertions
regarding primary residency in affected areas at the times of the disasters.

Use of Proceeds from Gulf Coast Disaster Loans

An OIG review found that SBA’s Office of Disaster Assistance (ODA) did not have adequate controls in
place to reasonably ensure that proper documents were secured from borrowers and that borrower receipts
were sufficiently reviewed before making subsequent loan disbursements. As a result, ODA processed
questionable claims, including some with potential fraud.

The OIG reviewed a statistical sample of 127 loan disbursements and found that 69, or 54 percent,
totaling $10.1 million, were made without proper documents and certifications. Rather, ODA processed
disbursements with incomplete and unsigned certifications from borrowers. For example, case workers
relied on vendor quotes and contractor proposals as evidence of work completed, receipts were of
questionable authenticity, or no supporting documentation was provided. This occurred because ODA
made procedural changes that eliminated review of borrower documentation supporting how prior
                                                      proceeds were used for disbursements under
The OIG reviewed a statistical sample of 127 loan     $50,000 on secured loans, and provided case
disbursements and found that 54 percent were          workers with discretion regarding which
made without proper documents and certifications documents to review when making disbursements
from borrowers                                        over $50,000 in aggregate. Through discussions
                                                      with vendors associated with 31 of the
disbursements reviewed, the OIG determined that ODA accepted inadequate support for $350,000 in
expenditures on four loans which, upon further analysis, appeared to be false claims made by borrowers.
Despite the questionable nature of the support submitted by these borrowers, case workers did not follow
up with contractors and/or inspect damaged property to verify whether proceeds were used as claimed.



                                                     6
                                        Disaster Loans

Further, because ODA had not secured borrower certifications for these expenditures, the Agency may
have weakened its ability to pursue criminal penalties as well as civil remedies from these borrowers
under the False Claims Act.

The OIG recommended that the ODA reject unsigned or incomplete Borrower’s Progress Certification
forms. Further, because “use of proceeds” reviews are an important control to detect fraudulent claims
and ensure that repairs are being made, the OIG also recommended that ODA revise its Standard
Operating Procedures (SOP) to (1) require review of either all, or a sample of, disbursements over
$10,000 to provide assurance that prior proceeds were properly used, and (2) require that Borrower’s
Progress Certification forms and supporting receipts be reviewed and signed by ODA to document that
reviews were made. Finally, the OIG recommended that ODA reemphasize to reviewers that they should
conduct site visits or contact vendors to confirm expenditures when questionable contractor receipts are
submitted by borrowers.

Borrower Eligibility for Gulf Coast Disaster Loans

An OIG review found that ODA did not have adequate controls in place to prevent ineligible applicants
from receiving disaster loans for properties that were not
their primary residences. The OIG reviewed a sample of …ODA did not have adequate controls in
35 loans disbursed between October 2005 and October place to prevent ineligible applicants from
2008 and found that 29 loans, or 83 percent, were receiving disaster loans for properties that
approved by ODA without adequately verifying whether were not their primary residences.
the properties were the primary residences of the
applicants. In addition, ODA did not obtain proof of ownership for one loan applicant. Further review
determined that for 8 of the 29 loans, on which ODA disbursed $683,200, the properties may not have
been the applicants’ primary residences. Another borrower received a Housing and Urban Development
(HUD) Road Home Grant for approximately $19,000 after receiving an SBA disaster loan, resulting in a
duplicate benefit. The OIG made two recommendations to address weaknesses associated with
identifying borrowers’ primary residences, and a third recommendation that ODA request remittance
from HUD for the Road Home Grant that duplicated disaster benefits awarded under the SBA loan.

Improper Payment Rate for the Disaster Loan Program

The Improper Payments Information Act (IPIA) of 2002 requires federal agencies to review their
                                               programs and activities annually, identify programs that
…the OIG estimated the improper payment may be susceptible to significant improper payments,
rate to be at least 46 percent, or             estimate amounts improperly paid, and report on the
approximately $1.5 billion of $3.4 billion in amounts of improper payments and actions to reduce them.
loans disbursed in FY 2007.                    Since implementation of the IPIA, SBA has reported a low
                                               improper payment rate for the Disaster Loan program;
however, an OIG review disclosed that SBA’s estimate for FY 2007 significantly understated the level of
improper payments and was not statistically valid. SBA reported that improper payments were about
$4.5 million, or 0.55 percent of the $819.7 million in loans approved in FY 2007. In contrast, the OIG
estimated the improper payment rate to be at least 46 percent, or approximately $1.5 billion of $3.4 billion
in loans disbursed in FY 2007.




                                                     7
                                        Disaster Loans

SBA did not properly estimate the rate because of major sampling design errors, flaws in measurement
methodology, and inadequate reviews of loan files. In
preparing its estimate, the Agency employed attribute          SBA did not properly estimate the rate
sampling, when it should have used variable sampling.      because  of major sampling design errors,
The Agency also did not properly calculate the error rate   flaws in measurement methodology, and
or apply it when projecting the total value of FY 2007               inadequate reviews of loan files.
improper payments because it did not consult with a
statistician, as required by Office of Management and Budget (OMB) guidance. In addition, SBA’s
improper payment reviews did not adequately detect significant errors during loan origination and
disbursement. The OIG’s review of 30 of the 210 loans sampled by SBA revealed nine improper
payments, whereas the Agency had only identified two. Finally, loan reviewers did not have clear
instructions regarding what constituted improper payments.

The OIG made seven recommendations to address the identified deficiencies. The Agency generally
concurred with the recommendations, but commented on several issues raised in the report. ODA
disagreed with OIG’s assertion that, to be accurate, improper payment reviews must be based on
disbursements rather than approvals, but agreed to revisit the issue with OMB to obtain clear guidance for
the Disaster Loan program. ODA also responded that payments involving a borrower’s lack of repayment
ability or creditworthiness should not be considered improper because the Agency’s policy in effect at the
time allowed such payments. The OIG contended that loans to borrowers lacking repayment ability
constituted improper payments despite the approval process followed and ultimately conflicted with the
intent of the IPIA. The Agency promised to work with OMB to clarify guidance and ensure issuance of
appropriate disclosures for previously reported improper payment rates.

Task Force Continues to Battle Gulf Coast Hurricane Fraud

In conjunction with other law enforcement organizations on the Hurricane Katrina Fraud Task Force, the
OIG had made 54 arrests and obtained 65 indictments and 59 convictions from the task force’s inception
through March 31, 2009. The following are some examples of OIG cases related to the Gulf Coast
hurricanes.

   A Mississippi couple was indicted for conspiracy and theft of government funds based on an
    allegation that they received $300,000 in disaster relief funds, including $152,000 from an SBA
    disaster home loan, for an address that was not their primary residence. This case originated from a
    referral by the U.S. Attorney’s Office for the Southern District of Mississippi. The OIG is conducting
    this investigation jointly with the HUD OIG, the Mississippi State Auditor’s Office, the U.S.
    Department of Homeland Security (DHS) OIG, and the U.S. Department of Health and Human
    Services (HHS) OIG.

   A Louisiana couple pled guilty to wire fraud. They received a $94,000 SBA disaster home loan and a
    $125,500 SBA disaster business loan, claiming damages from Hurricane Katrina to both their
    residence and a day care business located at the same address. The couple transmitted to SBA, via
    facsimile, false inflated receipts as supporting documentation for repairs completed. Based upon
    these receipts, SBA approved additional disbursements on the approved loans. The OIG is
    conducting this investigation jointly with DHS OIG and HUD OIG.




                                                    8
                                        Disaster Loans

   The operator of a Texas seafood business pled guilty to making a false and fraudulent statement. He
    had submitted a disaster loan application to SBA in which he claimed that the company had a
    Louisiana business location that sustained an estimated $2.8 million in damage from Hurricane Rita.
    In addition, he submitted a false commercial lease agreement showing that the company occupied real
    property in the Louisiana town during the hurricane, as well as fraudulent invoices showing more
    than $1.9 million in hurricane-related repair expenses. In fact, at no time did he own or operate a
    business in the Louisiana town. The OIG conducted this joint investigation with the Bureau of
    Alcohol, Tobacco, Firearms and Explosives (ATF) and DHS OIG.

Aftermath of 9/11 Disaster Loan Fraud Results in Further Legal Actions

In response to the September 11, 2001, terrorist attacks, SBA disbursed over $1.1 billion in disaster
assistance loans. Unfortunately, as with other disasters, the need to disburse funds quickly created
opportunities for dishonest applicants to commit fraud. OIG investigations have resulted in the
prosecution of numerous parties who took advantage of this tragedy. For example, the former president
of a foreign mining company was sentenced to 3 months in prison and 5 years supervised release after
pleading guilty to being an accessory after the fact for helping a co-conspirator, the former owner of an
auto supply company, to fraudulently negotiate an SBA-issued two-party check. After the attacks on
                                                 New York City, the co-conspirator obtained an SBA
…the need to disburse funds quickly              disaster loan of nearly $647,000 for his company to pay
created opportunities for dishonest              outstanding debts. As part of the loan, he received a two-
applicants to commit fraud.                      party check from SBA for over $86,000 payable jointly to
his company and the mining company. At the co-conspirator’s request, the mining company’s president
deposited the check into his company’s account, kept $12,000 that the mining company was actually
owed, and wire transferred the balance to the co-conspirator. The OIG is conducting this investigation
jointly with the U.S. Postal Inspection Service.




                                                    9
                        Small Business Access to Capital

Overview

As of March 31, 2009, SBA had a financial assistance portfolio of guaranteed and direct loans of more
than $90 billion. SBA’s largest lending program, and the principal vehicle for providing small businesses
with access to credit that cannot be obtained elsewhere, is the Section 7(a) Loan Guaranty program. This
program is vulnerable to fraud and unnecessary losses because it relies on numerous third parties
(e.g., borrowers, loan agents, and lenders) to complete loan transactions. Approximately 80 percent of
loans guaranteed annually by SBA are made by lenders to whom SBA has delegated loan-making
authority. Additionally, SBA has centralized many loan functions and reduced the number of staff
performing these functions. As SBA has placed more responsibility and independence on its lenders, the
need for OIG oversight has increased significantly. OIG reviews have continued to identify weaknesses
in SBA’s lender oversight efforts.

SBA’s 504 Loan program provides small businesses with long-term, fixed-rate financing, in the form of
government-guaranteed loans, for the purchase of land, buildings, machinery, and other fixed assets.
These loans are issued through a partnership with Certified Development Companies (CDC) and private
sector third-party lenders and are funded through the issuance of government-guaranteed debentures. The
CDC’s are non-profit corporations that are certified and regulated by SBA to package, process, close, and
service loans under the 504 program.

Another financial assistance program, the SBIC program, was established in 1958 to stimulate and
supplement the flow of private equity capital and long-term debt financing to small business concerns
using private venture capital firms and SBA-guaranteed funding. In addition, small and emerging
contractors who cannot obtain surety bonds through regular commercial channels can apply for SBA
bonding assistance under the Surety Bond Guarantee program.

Review of Liquidation Process at the National Guaranty Purchase Center

SBA guarantees loans that are made by participating lenders. Upon default, SBA authorizes lenders to
continue servicing the account and, should liquidation become necessary, completely liquidate or sue
upon the loan instrument. During the liquidation process, SBA’s National Guaranty Purchase Center
(NGPC) in Herndon, Virginia, reviews and approves lender actions, if necessary. When no further
recovery is expected on a loan, the NGPC also performs a review to determine if the lender materially
complied with SBA’s liquidation requirements.

The OIG reviewed the liquidation processing for defaulted 7(a) loans at the NGPC to determine whether
(1) the Center’s liquidation process, which culminates in loan charge-off, identified and addressed lender
noncompliance with SBA’s procedures to mitigate
losses, and (2) the Center adequately managed loans in        Based on these results, the OIG estimated
liquidation status. Based on a statistical sample of 54           that SBA made at least $23 million in
of 7,120 loans charged-off between October 2005 and            improper payments on loans charged-off
July 2007, the OIG found that the NGPC’s purchase                      during the time period reviewed.
and liquidation processes did not identify or address
lender deficiencies meriting repair or denial of guaranties for 21 of the loans, totaling $1.4 million (the
OIG recommended recovery of all but $.2 million of these payments in a prior reporting period). Based
on these results, the OIG estimated that SBA made at least $23 million in improper payments on loans
charged-off during the time period reviewed.



                                                    10
                         Small Business Access to Capital

The OIG also reviewed a sample of 60 charged-off loans out of 9,143 loans that were in liquidation
between July 2006 and July 2007. Seventy-seven percent were in liquidation for an average of three
years, and were not properly monitored. As a result, the NGPC did not timely recover approximately
$2.6 million in improper payments and liquidation proceeds, timely charge-off or remove 44 loans from
the liquidation portfolio, or correctly report the outstanding balances on two loans. Based on these
results, the OIG estimated that at least 6,034 loans in liquidation as of July 31, 2007, had overstated
values of at least $324 million.

The OIG made six recommendations for mitigating the deficiencies found in the NGPC’s liquidation
process, developing better management of the Center’s liquidation portfolio, and improving lender
oversight.

Review of SBA-Serviced Liquidation of Certified Development Company Loans

Certified Development Company (CDC) loans are placed into liquidation when SBA purchases the
debentures that guarantee the loans. Currently SBA processes most of the liquidations, while others are
processed by Premier Certified Lenders (PCL) and Authorized CDC Liquidators (ACL). In
February 2007, SBA centralized all of its CDC liquidations by shifting liquidation responsibilities from
its district offices to two commercial loan service centers in Fresno, California and Little Rock, Arkansas.
The OIG conducted a review of CDC liquidations to determine (1) whether SBA’s liquidation efforts
maximized recoveries of outstanding balances on purchased CDC loans, and (2) whether centralization
improved the liquidation process.

The OIG reviewed a sample of 95 loans that were in liquidation as of July 29, 2007, having outstanding
                                                   loan balances totaling of $29.3 million, and found
…the OIG estimated that SBA missed                 that SBA did not maximize opportunities to recover
opportunities to collect at least $106 million on  $12.7 million on 30 of the loans. Based on the
1,427 loans in liquidation…                        sample results, the OIG estimated that SBA missed
                                                   opportunities to collect at least $106 million on
1,427 loans in liquidation as of July 29, 2007, that had recorded purchase dates. Missed collection
opportunities were attributed to deficiencies found in all of the key areas of the liquidation process.
Specifically, SBA did not:

       Conduct adequate or timely protective bid analyses;
       Obtain current appraisals;
       Perfect liens;
       Identify and pursue all available assets;
       Attempt and reach compromises reflective of obligors’ repayment ability;
       Properly charge-off loans; or
       Refer charged-off loans to Treasury.

The OIG also found that, in the first 6 months after centralization, there was no measurable improvement
in the percentage of fully liquidated loans at the service centers because the two centers inherited a large
number of incomplete loans files and focused resources on reducing a backlog of older loans awaiting
charge-off; by April 2008, SBA had reduced the backlog from as high as 509 to 153. SBA has since re-
engineered the liquidation process and increased staffing at the two centers. These improvements are



                                                    11
                        Small Business Access to Capital

expected to expedite referral of loans to Treasury for further debt collection. The Agency agreed with
OIG’s recommendation to evaluate whether these improvements have enabled the centers to complete all
required liquidation actions and, if not, make appropriate staffing and process adjustments to do so.

Ongoing Investigation Continues to Generate Prosecutorial Actions

Eighteen individuals were arrested in 2007 by OIG and U.S. Secret Service agents for a scheme in which
a lender’s former executive vice president and others conspired to fraudulently qualify loan applicants for
SBA-guaranteed loans, primarily for the purchase of gas stations, across several Midwestern states. The
scheme involved at least 89 fraudulent loans issued before the fraud was discovered and the lender’s
office was subsequently closed. The loans totaled approximately $85 million. Thus far, 37 individuals
This investigation has identified 89 fraudulent        have been indicted or otherwise charged and 24
loans totaling about $85 million and has, thus far, have been convicted. Four of those individuals are
resulted in the indictment of 37 individuals.          international fugitives. To date, court-ordered
                                                       restitution, SBA recoveries of loan guaranties
from the lender, and potential cost savings from the withdrawal of loan guaranties total approximately
$56.5 million. The investigation is continuing, with more indictments expected. The following cases are
part of the ongoing joint investigation with the U.S. Secret Service, except for the case involving the
owner of an Illinois finance company, which is a joint effort with the Federal Bureau of Investigation
(FBI).

     The former executive vice president mentioned above was sentenced to 120 months incarceration
      and 2 years supervised release, and was ordered to pay $30 million in restitution to the lender,
      nearly $3 million to a bank, and over $800,000 to SBA. He previously pled guilty to conspiracy
      to defraud SBA and to lying to a federal grand jury.

     A former employee of a Michigan bank was sentenced to 9 months home confinement and
      5 years probation for misapplication of bank funds. She had issued a $1,680,000 cashier’s check
      based on a non-sufficient funds credit card check written by a bank customer. The investigation
      found that the unfunded cashier’s check was used by a Michigan man and his co-conspirators to
      purchase a house with the intent to promptly resell (or “flip”) the property to a straw buyer.

     The former owner of an Illinois finance company pled guilty to bank fraud as well as fraud
      involving bank entries, reports, and transactions. The bank fraud charge related to his submitting
      a false account verification letter and bogus tax returns to influence a bank’s approval of a
      $1.2 million home equity line of credit. The second charge related to a scheme to induce a non-
      bank lender and SBA to approve a $1.35 million SBA-guaranteed loan to one of his companies.
      He also provided fraudulent cashier’s checks at loan closing. In addition to his own SBA loan, he
      brokered SBA-guaranteed loans for others through the non-bank lender involved in the
      investigation. Fraudulent equity injection documentation was provided to the lender in at least
      20 instances. The total loss, including loans charged off and loans now in liquidation, is over
      $9 million.

     A Michigan man pled guilty to making a false statement for the purpose of influencing the action
      of SBA. He signed a HUD settlement statement that falsely represented that he paid a $510,000
      deposit for the purchase of two gas stations. The total amount of the two SBA loans involved in
      the transactions was $1.35 million.



                                                    12
                         Small Business Access to Capital

Corrupt Loan Agents Harm SBA Loan Programs

A prospective borrower or a lender may pay a loan agent to prepare documentation for an SBA loan
application and/or refer the borrower to a lender (or vice versa). Although honest loan agents connect
small businesses to sources of capital, disreputable agents have perpetrated frauds involving hundreds of
millions of dollars in SBA-guaranteed loans. Such loans often default for nonpayment, thus increasing
losses in the loan guaranty program.

In one case, a loan broker, a business associate of the broker, and a broker-created Texas corporation
allegedly defrauded a Texas bank by fraudulently
procuring a $980,000 SBA-guaranteed loan to …disreputable agents have perpetrated frauds
purchase three convenience stores. The loan broker            involving hundreds of millions of dollars in
had wanted to purchase only one store, but the stores                               SBA-guaranteed loans
were not being sold individually. He recruited two
additional borrowers to purchase the three stores under another name, knowing that the borrowers were
not able to pay the required capital injection. The bank’s business development officer allegedly accepted
a $1,500 check from the loan broker in exchange for influencing the award of the loan. The officer’s wife
allegedly negotiated the check, which was made out to her. The broker, the bank officer, the bank
officer’s wife, the broker’s business associate, and the corporation were all indicted on various counts of
aiding and abetting and criminal forfeiture. In addition, the broker, his associate, and the corporation
were indicted for bank fraud. Finally, the broker was indicted for bribing a financial institution officer,
while the bank officer and his wife were indicted for accepting a bribe by a financial institution officer.
The OIG is conducting this investigation jointly with the FBI.

Criminals Use an Array of Methods to Defraud Loan Guaranty Programs

Criminals use an assortment of tactics to fraudulently obtain–or induce others to obtain–SBA-guaranteed
loans. Such tactics include submitting fraudulent documents; making fictitious asset claims; manipulating
property values; using loan proceeds contrary to the terms of the loans; and failing to disclose debts, prior
criminal records, or other SBA-backed loans. These actions make financial loss to SBA and its lenders
more likely. The following examples illustrate what people are willing to do to fraudulently obtain SBA
loans.

     The former owner of a Virginia grocery store was sentenced to 2 years probation, over $188,000
      in restitution, and a $100 special assessment fee after previously pleading guilty to wire fraud in
      connection with a $690,000 SBA-guaranteed business loan secured by her home. In order to
      obtain cash through her collateralized home, she downloaded a bank letterhead from the Internet
      and created a fraudulent release of lien. As a Virginia notary, she notarized the fraudulent release
      of lien and then posed as a bank official to record it at the county land record office. She then
      refinanced her home and received a cash payout of approximately $158,000. During a routine
      asset check, bank officials discovered the fraudulent release of lien and reported their findings to
      SBA and the OIG. She defaulted on the loan, resulting in a loss of nearly $318,000 to the
      Agency.

     Between 2002 and 2005, the president of a Texas slaughtering business received $1,236,500 in
      SBA-guaranteed loans and an additional $1,712,000 in non-SBA loans. He used numerous



                                                     13
                         Small Business Access to Capital

        fraudulent representations and documents to convince multiple lenders that he had sufficient
        collateral and income to repay the amounts borrowed. He was sentenced to 37 months in prison,
        5 years supervised release, a $10,000 fine, nearly $2.4 million in restitution, and a $600 special
        assessment fee after pleading guilty to wire fraud, aiding and abetting, and making a false
        statement to a bank. The OIG is conducting this investigation jointly with the FBI.

     An Illinois man was involved in a scheme to induce a non-bank lender to approve three separate
      loans (one SBA-guaranteed loan and two non-SBA loans)–totaling more than $4 million–to
      purchase three gas stations in Iowa. Along with a co-conspirator, he enlisted “front” borrowers
      and provided the lender with fraudulent documentation on behalf of the borrowers in order for the
      three loans to be approved. The man pled guilty to bank fraud and fraud involving bank entries,
      reports, and transactions. The co-conspirator previously pled guilty to making false statements.
      The OIG is conducting this investigation jointly with the FBI.

     A Colorado man was indicted for submitting a false loan application. He received two SBA-
      guaranteed loans totaling $1.35 million but allegedly hid his criminal history, which would have
      precluded him from receiving the loans. Criminal history records showed that he had pled guilty
      to embezzling over $115,000 from an organization while he was its executive director. He had
      also pled guilty to a third degree assault charge. The estimated loss on the loans is $970,000.
      This case was initiated based on a referral from the FBI. The OIG is working this investigation
      jointly with the FBI.

     An Illinois man pled guilty to wire fraud in connection with two SBA-guaranteed loans from two
      lenders in the amounts of $660,000 and $200,000 for the nearly simultaneous purchases of two
      construction-related businesses. At the time of his loan applications, he had been arrested and
      faced theft and fraud charges related to a third business that he owned. He concealed the felony
      arrest, as well as pending charges from the SBA lenders, in order to qualify for the loans. In
      addition, he falsified the required equity injections for both loans.

     A Colorado woman was ordered to pay over $1.7 million in restitution to various parties,
      including SBA, a non-bank lender, the physician who employed her, a health care group, and an
      insurance company. She previously had been sentenced to 60 months incarceration and
      60 months of parole for felony theft. While employed as an office manager, she used her
      employer’s personal information and signature stamp to fraudulently obtain two SBA loans
      totaling $150,000, a non-SBA loan of nearly $181,000, as well as other funds, primarily for her
      personal benefit. The OIG worked this investigation jointly with the Denver District Attorney’s
      office based on a referral from the lender.

False Equity Injection Continues to Affect Loan Programs

A borrower’s own financial stake in a business is known as equity (or capital) injection. An individual is
less likely to default on a loan if he or she personally has something at risk in the business. SBA requires
that borrowers inject such available money into projects financed by guaranteed loans. Some borrowers
circumvent this requirement by falsifying the amount or source of such injections.

For example, an investigation disclosed that a company obtained a $1 million SBA-guaranteed loan
through a non-bank lender and a $300,000 non-SBA loan from a bank to purchase a convenience store



                                                    14
                        Small Business Access to Capital

from another company. It is alleged that the defendants falsely represented to the bank that the purchaser
provided funds at closing. Consequently, four individuals in Texas were indicted for conspiracy, false
statements on a loan application, aiding and abetting, mail fraud, and wire fraud. Two of the individuals
were the president and vice president of a business that owned convenience stores. The third individual
owned a business that purchased convenience stores, and the fourth individual owned a title company.
The OIG is conducting this investigation jointly with the FBI.




                                                   15
Small Business Development, Contracting, Education, and Training

Overview

Through its government contracting programs, SBA works to maximize opportunities for small, woman
and minority-owned, and other disadvantaged businesses to obtain federal contract awards. These
programs include, among others, the Historically Underutilized Business Zone (HUBZone)
Empowerment Contracting program and the Small Disadvantaged Business (SDB) Certification program.
SBA also negotiates with other federal agencies to establish procurement goals for contracting with small,
disadvantaged, women-owned, service-disabled-veteran-owned, and HUBZone businesses. The current
government-wide goal is for small businesses to receive 23 percent of the total value of prime contracts
awarded each fiscal year.

To help small disadvantaged businesses gain access to federal and private procurement markets, SBA’s
Section 8(a) Business Development program offers a broad range of business development support, such
as mentoring, procurement assistance, business counseling, training, financial assistance, surety bonding,
and other management and technical assistance. SBA also provides assistance to existing and prospective
small businesses through a variety of counseling and training services offered by partner organizations.
Among these are Small Business Development Centers (SBDCs), the Service Corps of Retired
Executives (SCORE), and Women’s Business Centers (WBCs). Most of these are grant programs that
require effective and efficient management, outreach, and service delivery.

8(a) Fraud Investigation Results in Sentencing

The Section 8(a) Business Development program for small businesses operated by socially and
economically disadvantaged individuals provides preferences in obtaining federal contracts. Such
preferences can be an incentive for a firm to falsely claim 8(a) status. Although the program requires that
a disadvantaged individual have control and ownership of an 8(a) company, this sometimes is not the
case. The OIG is conducting the following interrelated investigations jointly with the Environment
Protection Agency (EPA) Criminal Investigative Division (CID), the Naval Criminal Investigative
Service (NCIS), the Internal Revenue Service (IRS) CID, and the FBI.

     A non-disadvantaged businessman involved with three Maryland SBA 8(a)-certified demolition
      and asbestos abatement companies conspired with others by not disclosing that non-
      disadvantaged individuals provided critical bonding, insurance, financial support, and control
      over the companies. Between 2002 and 2004, and without SBA’s knowledge and approval, the
      businessman and his co-conspirators received approximately $900,000 more in bonuses and
      salaries than the president of one of the 8(a) firms. The businessman was sentenced to 30 days in
      jail, 6 months home confinement, 18 months supervised release, a $20,000 fine, and a $100
      special assessment fee after previously pleading guilty to conspiracy to defraud SBA.

     Another non-disadvantaged Maryland man conspired with one of the above companies and other
      individuals by not disclosing critical support and control that he provided to that company and the
      two other 8(a) firms. The company concealed the fact that non-disadvantaged individuals
      exercised significant control over the contracts bid upon and the selection and payment of
      subcontractors. The man was sentenced to 18 months in prison, 3 years supervised release, a
      $400,000 fine, $300,000 in restitution, and a $200 special assessment fee for conspiracy to
      defraud SBA and participation in a money laundering conspiracy. The company was sentenced
      to 3 years probation, a $75,000 fine, and a $400 special assessment fee for conspiracy to defraud



                                                    16
Small Business Development, Contracting, Education, and Training

        SBA. Moreover, SBA suspended the company from the 8(a) program and suspended the
        company and its owner from any federal procurement or non-procurement programs and
        activities.

     Finally, the president and owner of a Maryland demolition and asbestos abatement company
      conspired with others to maintain a company’s 8(a) eligibility by not disclosing that non-
      disadvantaged individuals provided start-up money for the company, exercised significant control
      over the contracts bid upon, and directed the selection and payment of subcontractors. Although
      this person was the qualified disadvantaged individual, the non-disadvantaged individuals
      received the additional $900,000 in bonuses and salaries mentioned above. The owner was
      sentenced to 2 months in jail, 3 years probation, a $100,000 fine, and a $100 special assessment
      fee for conspiracy to defraud SBA.

Legislation Requires Approval of SBDC Surveys

In December 2004, Congress amended Section 21(a)(7) of the Small Business Act to restrict the
disclosure of information regarding individuals or small businesses that have received assistance from an
SBDC, and further restricts the Agency’s use of such information. The provision also requires the
Agency to issue regulations regarding disclosures of such information for use in conducting financial
audits or SBDC client surveys. To date, however, SBA has not issued these regulations. In addition,
paragraph 21(a)(7)(C)(iii) states that, until the issuance of such regulations, any client survey and the use
of such information shall be approved by the Inspector General, who shall include such approval in the
OIG’s Semiannual Report to Congress. The Agency reported that there were no SBDC surveys requiring
OIG approval during this reporting period.




                                                     17
                                   Agency Management

Audit of SBA’s FY 2008 Financial Statements

On November 14, 2008, pursuant to the Chief Financial Officers Act of 1990, KPMG LLP issued the
independent auditors’ report and accompanying reports on internal control and compliance with laws and
regulations for the fiscal year ended September 30, 2008. The audit was performed under a contract with
the OIG.

The independent auditors’ report concluded that SBA’s consolidated financial statements presented the
financial position of SBA fairly, in all material respects, including net costs, changes in net position, and
combined statements of budgetary resources, for the
                                                                …the independent auditor again reported a
years ending September 30, 2008 and 2007. The report
                                                               significant deficiency related to information
did not find any instances of noncompliance with
                                                                                    technology (IT) controls
applicable laws and regulations; however, with respect
to internal control over financial reporting, the
independent auditor again reported a significant deficiency related to information technology (IT)
controls, but did not consider the deficiency to be a material weakness. It noted that, while SBA has
made progress in its efforts to address prior IT internal control deficiencies since last year’s report,
deficiencies continue to exist for security access controls, software program changes, and end-user
computing. The Agency concurred with the independent auditors’ findings and agreed to implement their
recommendations.

In its Management Letter, dated December 17, 2008, KMPG identified non-reportable conditions that
came to its attention during this audit. It commented on internal controls over financial reporting and
other operational matters that were not considered reportable for the purposes of this audit, recognizing a
need for improvement in the following areas:

       Timely charge-off of delinquent loans;
       Adherence to IT general control procedures and review of payments;
       Development of procedures to track loan files;
       Loan guaranty approval processes and prevention of duplicate loans;
       On-site lender reviews and examinations; and
       Congressional grant monitoring.

Issues recognized in the FY 2007 Financial Statement audit that still needed improvement included:

       Guaranty loan charge-off and lender follow-up processes;
       Development and communication of standard operating procedures;
       Undelivered orders; and
       Payroll processing and controls over official personnel files.

Resolved issues from the FY 2007 Financial Statement audit included:

     Loan guaranty purchase process; and
     Review of the disaster program credit model calculations

The Agency concurred with these findings and agreed to, or had already begun implementing, KPMG’s
recommendations.



                                                     18
                                   Agency Management

HSPD-12 Card Issuance System

Homeland Security Presidential Directive 12 (HSPD-12) requires federal agencies to implement a system
for Personal Identity Verification (PIV) cards. To comply with this Directive, SBA developed an Identity
                                                      Management System (IDMS) to maintain the
…SBA had not fully satisfied any of three OMB         personal identity information of its employees. An
requirements for 2007 and would not meet a            OIG review of this system found that SBA had not
fourth in 2008.                                       fully satisfied any of three OMB requirements for
                                                      2007 and would not meet a fourth in 2008.
Specifically, SBA was not a certified organization capable of developing or operating an HSPD-12
compliant system, did not ensure that the development contractors were GSA-approved, and did not
perform a security review of IDMS to ensure privacy data maintained was adequately protected.
Moreover, SBA did not follow systems development protocol or conduct acceptance testing when
introducing major software and hardware changes. Consequently, IDMS experienced server freezes, data
integrity issues, user processing bottlenecks, and problems capturing and verifying fingerprints, as well as
other issues. SBA also did not follow its own capital investment policy for IT investments costing more
than $200,000 in a single year or more than $500,000 over three years. To ensure that IDMS was
managed within budget and schedule, and complied with OMB requirements for project funding, the
Agency should have used Earned Value Management (EVM) techniques to manage the project.

Based on the significant risk of maintaining personal identity information in a system that has not
undergone required security reviews, the OIG recommended that SBA immediately cease IDMS
operations until the system was deemed capable          …the OIG recommended that SBA immediately
of protecting the privacy data contained therein.    cease IDMS operations until the system is deemed
The OIG also recommended that SBA comply              capable of protecting the privacy data it contains.
with Certification and Accreditation (C&A)
requirements to secure HSPD-12 and IDMS operations, conduct tests to ensure IDMS meets functional
requirements, use EVM techniques to manage project performance, and report a baseline plan for
accomplishing the project’s objectives to OMB, as required.

System Access by Contractors Without Security Clearances

The OIG is required to annually assess SBA’s compliance with the Federal Information Security
Management Act (FISMA). To supplement the FY 2008 assessment, the OIG conducted a review of
…SBA did not consistently ensure that              system access by contractors without security
contractors were properly vetted prior to granting clearances. The OIG found that SBA did not
them access to sensitive SBA systems and data… consistently ensure that contractors were properly
                                                   vetted prior to granting them access to sensitive
SBA systems and data and did not consistently report and track this vulnerability in its Plan of Action and
Milestones (POA&M).

The OIG recommended that the Chief Information Officer (CIO) require system owners to confirm that
all contractor personnel with access to sensitive systems and data have background investigations and
clearances commensurate with SBA policy and immediately suspend system access for any contractors
not in compliance. The OIG also recommended measures to heighten or clarify notification, review, self-
assessment, rating, reporting, and documentation requirements to ensure compliance.



                                                    19
                                  Agency Management

National Guaranty Purchase Center Furniture Contract

The OIG initiated a review in response to allegations that SBA made an advance payment for the
purchase and installation of workstation furniture at the NGPC in Herndon, Virginia, that was not
delivered. The OIG found that:

     The original award was inappropriately sole-sourced to a small business contractor. In addition,
      shortly thereafter, the contract was inappropriately modified, doubling the value of the original
      award.

     SBA violated federal regulations by (1) advancing a $226,678 payment to the contractor prior to
      delivery of the furniture, and (2) making two additional payments totaling $78,856 that were
      unrelated to the contract.

     The Contracting Officer’s Technical Representative (COTR) inappropriately certified that the
      contractor should be paid and did not inform the contracting officer that the furniture had not
      been delivered. The contractor failed to use the advance to pay the vendor, resulting in
      repossession of the furniture.

     SBA inappropriately reduced the contractor’s debt for the undelivered furniture based solely on
      un-validated contractor invoices.

     The vice president of the contractor was also the owner of the subcontractor; therefore, the
      subcontractor may not have acted independently in repossessing the furniture.

     Two SBA contracting officers involved in the contract did not follow applicable rules or
      regulations. They signed documents without full knowledge of what they were approving and
      made decisions without informing superiors or requesting assistance from SBA’s Office of
      General Counsel (OGC).

The OIG recommended that SBA establish controls to prevent inappropriate contract modifications;
revise its SOP to require proof of delivery of goods and services with payment requests; determine
whether $239,030 in payments to the contractor were proper and, if not, seek reimbursement; and
determine whether disciplinary actions should be taken against the SBA contracting officers who
managed the contract. The Agency agreed with most of the recommendations, but planned further legal
consultation before determining whether debarment action against the contractor was feasible,
appropriate, and warranted.

Agency Management Decisions

The Inspector General Act requires Federal agencies to make decisions on all audit findings and
recommendations within 6 months of report issuance. Agency officials may agree, disagree, or propose
alternative actions to the recommendations. In an attempt to reduce the number of overdue management
decisions, the OIG revised its reporting process by requesting that the Agency transmit decisions on audit
recommendations at the same time that it provides management comments to the draft report. During this
reporting period, management decisions were made for 62, or 73 percent, of the 85 recommendations that



                                                   20
                                  Agency Management

were issued. At the end of the semi-annual reporting period, SBA had not made decisions on
8 recommendations that were made in prior reporting periods.

SBA Gift Authority

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General, who shall report his findings to Congress. According to
the information provided by SBA’s Office of Strategic Alliances, SBA did not accept any cash gifts
during this semiannual reporting period.

Cosponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act, as amended, requires the OIG to report to Congress on a semi-
annual basis regarding the Agency’s use of its authority in connection with cosponsorships and fee-based
Administration-sponsored events. SBA’s Office of Strategic Alliances provided information to the OIG
related to cosponsorships, including the names, dates, and locations of the cosponsored events and the
names of the cosponsors. This information was not verified by the OIG. As shown in Appendix IX,
between October 1, 2008 and March 31, 2009, there were 51 cosponsored events.




                                                   21
                         Other Significant OIG Activities

Character Screening Lessens Potential Program Fraud

Participants in SBA programs involving business loans, disaster assistance loans, Section 8(a)
certifications, surety bond guarantees, SBICs, and Certified Development Companies must meet Agency
character standards. To help ensure that this occurs, the OIG’s Office of Security Operations utilizes
name checks and, where appropriate, fingerprint checks to determine criminal background information.
During this reporting period, the OIG processed 1,423 external name check requests for these programs.

The OIG also refers applicants who appear ineligible because of character issues to program officials for
                                                           adjudication. The referrals are based on data
As a result of OIG referrals during this reporting         from the OIG’s on-line connection with the
period, SBA business loan program managers declined FBI. As a result of OIG referrals during this
25 applications totaling nearly $8.6 million, and          reporting period, SBA business loan program
disaster loan program officials declined 14 applications managers declined 25 applications totaling
totaling over $1.1 million.                                nearly $8.6 million, and disaster loan program
                                                           officials declined 14 applications totaling over
$1.1 million. In addition, the Section 8(a) program declined 11 applications for admission.

During this reporting period, the OIG also initiated 184 background investigations and issued
16 security clearances for Agency employees and contractors. The OIG also adjudicated 88 background
investigative reports and coordinated with the ODA to adjudicate 136 derogatory background
investigation reports. Finally, the OIG processed 2,166 internal name check requests for Agency
activities such as success stories, “Small Business Person of the Year” nominees, and disaster assistance
new hires.

OIG Promotes Debarment and Administrative Enforcement Actions

The OIG has aggressively promoted debarments by SBA as deterrence against parties that have engaged
in fraud or have otherwise exhibited such a lack of
business integrity that it is in the public interest to           The OIG regularly identifies candidates for
exclude them from receiving government contracts           debarment  and submits detailed recommendations
and other federal benefits. The OIG regularly              with  supporting documents to facilitate the efforts
identifies candidates for debarment and submits                               of the SBA debarment officials.
detailed recommendations with supporting
documents to facilitate the efforts of the SBA debarment officials. Debarment statistics for the reporting
period are in the Statistical Highlights section of this report.

The OIG has recently made a number of recommendations for debarment based upon fraudulent conduct
in the SBA business loan programs. As a result of several OIG investigations, numerous individuals have
been identified as submitting falsified proof of equity injections, making false claims of U.S. citizenship,
and submitting false financial information in order to obtain SBA-guaranteed loans. The OIG also
recommended debarment of an individual and his company for submitting false financial information as
part of a Certificate of Competency (COC) application. The COC was needed in order for the company
to be awarded a $2.3 million federal contract. As of the close of the reporting period, the Agency was
considering these various recommendations.




                                                      22
                         Other Significant OIG Activities

The OIG has also recommended that SBA develop better procedures for taking administrative
enforcement actions against loan agents and packagers that commit fraud or other wrongdoing. Past OIG
investigations have identified loan agent fraud on hundreds of millions of dollars of SBA loans. SBA’s
regulations at 13 C.F.R. Part 103 authorize the Agency to suspend or revoke a loan agent’s privilege to
conduct business with SBA. The regulations discuss the types of activities considered to be “good cause”
for suspending or revoking an agent but are silent on what procedures must be followed in order to
undertake a revocation or suspension action. To help deter fraud by loan agents and packagers, the OIG
has recommended that the Agency issue procedures to be used for these types of administrative
enforcement actions.

OIG Reviews of Proposed Agency Regulations and Initiatives Lead to Improved Program Controls

The internal controls that an organization puts into place are integral to the detection and deterrence of
waste, fraud, abuse, and inefficiencies. Additionally, federal agencies enforce integrity and accountability
through the regulations they issue to govern their programs. As part of its oversight of Agency programs
and operations, the OIG each year reviews and provides comments on a large number of proposed
revisions to SBA regulations and internal control documents, such as SOPs, policy notices, forms, and
plans for Agency reorganizations. Frequently, the OIG identifies material weaknesses and provides the
Agency with recommendations and proposed revisions to promote more effective controls. During this
reporting period, the OIG reviewed 55 proposed revisions of internal control documents and submitted
comments on 32 of these initiatives.

The Agency’s adoption of OIG recommendations has resulted in more robust controls in and
enhancements to a wide variety of Agency directives. For example, the OIG reviewed and commented on
material weaknesses in various proposed revisions of regulations and internal controls for the 8(a)
Business Development program, which has historically experienced weaknesses in its oversight
capabilities. The OIG comments focused on improving controls over these programs in order to promote
accountability among, and prevent fraud and abuse by, program participants. In addition, OIG comments
focused on strengthening SBA’s oversight of the performance of federal procurement actions by 8(a)
companies to ensure compliance with subcontracting limitations.

Other examples of OIG efforts in this area concerned several regulatory and procedural revisions for the
business loan programs, including comments recommending that SBA (1) strengthen its oversight of
lenders participating in these programs during the Agency’s reviews of lender requests for payment of
loan guaranties, and (2) clarify SOPs governing underwriting by lenders. At the end of the reporting
period, the OIG also provided comments on proposed internal control documents and regulations
prepared by the Agency in connection with its implementation of the Recovery Act. Finally, the OIG
provided extensive comments on a proposed revision of internal operating procedures regarding the
acceptance of gifts by SBA employees, so as to limit the potential for bribes and conflicts of interest, and
a proposed revision of the Agency’s internal control procedures.

Fraud Awareness Briefings

During this reporting period, the OIG conducted 6 fraud awareness presentations for approximately 980
representatives of lending institutions, federal and local agencies, and law enforcement organizations.
Topics included loan agent and lender fraud, as well as fraud indicators in other SBA loan programs.




                                                    23
                                                  Statistical Highlights

                                         6-Month Productivity Statistics
                                     October 1, 2008 through March 31, 2009

Summary of Office-Wide Dollar Accomplishments                                                                                                  Totals

A.   Potential Investigative Recoveries and Fines ................................................................... $41,653,389**
B.   Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $2,157,000
C.   Loans Not Made as a Result of Name Checks ....................................................................... $9,695,653
D.   Disallowed Costs Agreed to by Management ........................................................................ $2,929,457
E.   Recommendations that Funds Be Put to Better
     Use Agreed to by Management ........................................................................................................... $0

     Total..................................................................................................................................... $56,435,499

Efficiency and Effectiveness Activities Related to Audits and Other Reports

A. Reports Issued ...................................................................................................................................... 12
B. Recommendations Issued ..................................................................................................................... 85
C. Dollar Value of Costs Questioned.......................................................................................... $4,274,033
D. Dollar Value of Recommendations that Funds
   Be Put to Better Use ............................................................................................................ $46,367,586
E. Collections as a Result of Questioned Costs ........................................................................................ $0

Audit and Report Follow-up Activities

A. Recommendations for which Management Decisions were made
   During the Reporting Period ................................................................................................................ 62
B. Disallowed Costs Agreed to by Management ........................................................................ $2,929,457
C. Dollar Value of Recommendations that Funds Be Put to Better Use
   Agreed to by Management ................................................................................................................... $0
D. Recommendations without a Management Decision at End of Reporting Period ............................... 27

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation, Regulations, Standard Operating Procedures, and Other Issuances * Reviewed ............. 55

**   Includes $89,641 in restitution/recovery funds not reported in the previous semiannual period.




                                                                           24
                                                    Statistical Highlights

                                          6-Month Productivity Statistics
                                      October 1, 2008 through March 31, 2009

Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases ................................................................................................................ 32
B.   Convictions from OIG Cases.............................................................................................................. 27*
C.   Cases Opened ....................................................................................................................................... 37
D.   Cases Closed......................................................................................................................................... 61

Investigations Recoveries and Management Avoidances

A Potential Recoveries and Fines as a Result of
   OIG Investigations .......................................................................................................... $41,653,389**
B. Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $2,157,000
C. Loans Not Approved as a Result of the Name
   Check Program ...................................................................................................................... $9,695,653

     Total..................................................................................................................................... $53,506,042

SBA Personnel Actions Taken as a Result of Investigations

A    Dismissals............................................................................................................................................... 0
B.   Resignations/Retirements ....................................................................................................................... 0
C.   Suspensions ............................................................................................................................................ 0
D.   Reprimands............................................................................................................................................. 0
E.   Other....................................................................................................................................................... 0

Program Actions Taken as a Result of Investigations

A.   Debarments Recommended to the Agency .......................................................................................... 16
B.   Debarments Pending at the Agency ..................................................................................................... 24
C.   Proposed Debarments Issued by the Agency ....................................................................................... 26
D.   Final Debarments Issued by the Agency ................................................................................................ 0
E.   Proposed Debarments Declined by the Agency ..................................................................................... 2

OIG Hotline Operation Activities

A. Total Fraud Line Complaints.............................................................................................................. 231
B. Total Complaints Referred to Investigations Division ......................................................................... 41
C. Total Complaints Referred to SBA or Other Federal Investigative Agencies........................................ 2
D. Total Complaints Referred to Other Entities.......................................................................................... 4
E. Total Complaints Needing No Action..................................................................................... 184
*    Includes one conviction that occurred in the last semiannual reporting period that was not reported.
**   Includes $89,641 in restitution/recovery funds not reported in the previous semiannual period.



                                                                              25
                                        Appendices

                                           Appendix I
                                       OIG Reports Issued
                             October 1, 2008 through March 31, 2009

                                         Report        Issue          Questioned        Funds for
                Title
                                         Number        Date             Costs           Better Use
                                          Disaster Loans

Audit of Use of Proceeds from Gulf
                                           9-06        01/15/2009                  $0   $10,147,500
Coast Hurricane Disaster Loans

Review of Borrower Eligibility for
                                           9-09        03/31/2009          $19,000         $683,200
Gulf Coast Disaster Loans

Audit of Improper Payments in the
                                           9-10        03/26/2009                  $0            $0
Disaster Assistance Program

          Program Subtotal                   3                             $19,000      $ 10,830,700
                                   Small Business Access to Capital
Audit of the Liquidation Process at
                                           9-08      01/30/2009          $2,800,000     $22,836,886
the National Guaranty Process Center
SBA-Serviced Liquidation of
Certified Development Company              9-11      03/30/2009                    $0            $0
(CDC) Loans
           Program Subtotal                  2                           $2,800,000     $22,836,886
                                        Agency Management
SBA’s Implementation of an HSPD-
                                           9-01      10/06/2008                    $0            $0
12 Card Issuance System
Fiscal Year 2009 Report on the Most
Serious Management and
                                           9-02      10/10/2008                    $0            $0
Performance Challenges Facing the
Small Business Administration
Audit Of SBA’s Fiscal Year 2008
                                           9-03      11/14/2008                    $0            $0
Financial Statements
GFRS for Fiscal Year 2008                  9-04      11/14/2008                    $0            $0
Audit of SBA’s Fiscal Year 2008
                                           9-05      12/17/2008                    $0            $0
Financial Statements - Management
Letter
System Access By Contractors
                                           9-07       1/26/2009                    $0            $0
Without Security Clearances
Review of SBA National Guaranty
                                           9-12       3/31/2009           $239,030               $0
Purchase Center Furniture Contract
          Program Subtotal                   7                             $239,030               $0
       TOTALS (all programs)                12                          $ 3,058,030     $ 33,667,586




                                                  26
                                           Appendices

                                           Appendix II
                                 OIG Reports with Questioned Costs

                                                           Recommend       Questioned          Unsupported
                                          Reports
                                                             -ations*       Costs**              Costs**
     No management decision
A.
     made by September 30,                   1                  6              $1,216,003                   $0
     2008
     Issued during this reporting            3                  4                 $19,000          $3,039,030
B.
     period
     Universe from which
     management decisions could
                                             4                  10             $1,235,003          $3,039,030
     be made in this reporting
     period – Subtotals
     Management decision(s)
C.   made during this reporting              2                  3                       $0         $3,039,030
     period
     (i) Disallowed costs                     2                 3                       $0         $2,929,457
     (ii) Costs not disallowed                1                 1                       $0           $109,573
     No management decision
D.                                           6                  12             $1,235,003        $10,147,500
     made by March 31, 2009
*    Reports may have more than one recommendation.
**   Questioned costs are those which are found to be improper, whereas unsupported costs may be proper, but lack
     documentation.



                                     Appendix III
             OIG Reports with Recommendations that Funds Be Put to Better Use

                                                                                          Recommended
                                                                     Recommend-
                                                      Reports                            Funds For Better
                                                                       ations*
                                                                                               Use
     No management decision made by
A.                                                          1              1                     $12,700,000
     September 30, 2008
B.   Issued during this reporting period                    3              3                     $33,667,586
     Universe from which management
     decisions could be made in this reporting              4              4                     $46,367,586
     period – Subtotals
     Management decision(s) made during this
C.                                                          0              0                                $0
     reporting period
     (i) Recommendations agreed to by SBA
                                                            0              0                                $0
          management
     (ii) Recommendations not agreed to by
                                                            0              0                               $0
          SBA management
     No management decision made by
D.                                                          4              4                     $46,367,586
     March 31, 2009
*    Reports may have more than one recommendation.

                                                      27
                                                 Appendices


                                             Appendix IV
                           OIG Reports with Non-Monetary Recommendations

                                                                                      Reports       Recommendations
A.    No management decision made by September 30, 2008**                                 2                    2
B.    Issued during this reporting period                                                10                    78
      Universe from which management decisions could be made in
                                                                                         12                    80
      this reporting period – Subtotals
      Management decision(s) made (for at least one
C.                                                                                        7                    58
      recommendation in the report) during this reporting period

D.    No management decision made by March 31, 2009*                                      8                    22

*      Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may have
       recommendations that fall under both C. & D.
**     Information is different from what was previously reported due to database corrections.




                                           Appendix V
                            OIG Reports From Prior Semiannual Periods
                      with Overdue* Management Decisions as of March 31, 2009

                                                 Report         Date
                   Title                                                                        Status
                                                 Number        Issued
Annual Credit Reviews for Gulf Coast
                                                                             The Agency has not responded to one
Hurricane Disaster Loan                            8-10       3/28/08
                                                                             recommendation in the report.
Disbursements
Disaster Loan File Transfer and                                              The Agency has not responded to one
                                                   8-17       8/17/08
Service Delays                                                               recommendation in the report.
                                                                             The Agency has not responded to six
Audit of Six SBA Guarantied Loans                  8-18       9/08/08
                                                                             recommendations in the report.

*    “Overdue” is defined as more than 180 days from the date of issuance.




                                                            28
                                               Appendices

                                            Appendix VI
                         OIG Reports Without Final Action as of March 31, 2009

                                                                                                   Final
                                                                                      Date of
Report                                                                    Date                     Action
                                      Title                                         Management
Number                                                                   Issued                    Target
                                                                                     Decision
                                                                                                    Date
 0-14         7(a) Service Fee Collections                               3/30/00      8/22/00     10/11/08
              Audit of Internal Control Over Colson
              Services Corporation’s Contract as Central
 2-29                                                                    9/16/02     12/12/02     8/15/09
              Servicing Agent for SBA’s Certified
              Development Company Loan Program
              SBA’s Oversight of the Fiscal Transfer Agent
 3-08                                                                    1/30/03      4/15/07     11/30/09
              for the 7(a) Loan Program
              SBA’s Administration of the Procurement
 4-16         Activities of Asset Sale Due Diligence                     3/17/04       ***          **
              Contracts and Task Orders
              Audit of SBA's Process for Complying with
 4-34         the Federal Managers' Financial Integrity Act              7/29/04       ***          **
              Reporting Requirements
              Audit of a SBA-guaranteed Loan to Elatec
 4-40         Technology Corporation and HK Equipment,                   9/13/04      4/5/06      6/30/07
              Inc.
              Audit of Selected SBA General Support
 4-41                                                                    9/10/04      11/9/04     9/30/05
              Systems
              SBA-Sponsored and Cosponsored Events
 4-44                                                                    9/24/04       ***        9/30/05
              Conducted by District Offices
              Audit of SBA’s Information Systems Controls
 5-12                                                                    2/24/05      4/18/05     4/15/05
              – FY 2004
              SBA’s Administration of its Special
 5-23                                                                    9/24/04       ***         9/1/08
              Appropriation Grants
 5-28         Review of SBA Procedures For Cash Gifts                    9/30/05      2/23/06     2/29/08
              Audit of SBA's Fiscal Year 2005 Financial
 6-04                                                                    11/14/05     5/10/06     6/30/07
              Statements
              Audit of SBA's Fiscal Year 2006 Financial
 7-03                                                                    11/15/06    1/4/2007    12/31/2007
              Statements
              Vulnerability Technology Security
 7-16                                                                     3/6/07      3/7/07      3/30/07
              Assessment
              SBA’s Use of the Loan and Lender
 7-21                                                                    5/2/2007     5/2/07        **
              Monitoring System
 7-26         Audit of Liquidation of Disaster Loans                     10/23/07    10/23/07       **
              SBA's Oversight Of Business Loan Center,
 7-28                                                                    7/11/07      9/27/07    12/31/2009
              LLC
              Quality Assurance Reviews of Loss
 7-29                                                                    07/23/07      ***          **
              Verification
**      Target dates vary with different recommendations.
***     Management decision dates vary with different recommendations.


                                                         29
                                               Appendices

                                            Appendix VI
                         OIG Reports Without Final Action as of March 31, 2009

                                                                                                 Final
                                                                                      Date of
Report                                                                    Date                   Action
                                      Title                                         Management
Number                                                                   Issued                  Target
                                                                                     Decision
                                                                                                  Date
              Audit of SBA's FY 2007 Financial Statements -
 8-06                                                                    12/14/07    12/18/07      **
              Management Letter
              Loan Classification and Overpayments of
 8-09                                                                    3/26/08       ***         **
              Secondary Loans
 8-12         Oversight of SBA Supervised Lenders                         5/9/08      6/20/08    12/31/09
              Planning for the Loan Management and
 8-13         Accounting System Modernization and                        5/14/08        **         **
              Development Effort
              Non-Native Managers Secured Millions of
 8-14                                                                     8/7/08      8/18/08    3/31/09
              Dollars from 8(a) Firms Owned by Alaska
              Acceptance of VBP Group into the 8(a)
 8-16         Program and Subsequent Contract Award by                   7/18/08      8/11/08      **
              SBA
**      Target dates vary with different recommendations.
***     Management decision dates vary with different recommendations.




                                                         30
                                           Appendices

                                           Appendix VII
                             Summary of Significant Recommendations
                             From Prior Semiannual Reporting Periods
                             Without Final Action as of March 31, 2009*

                                                                             Date of
Report        Date                                                                        Final Action
                                      Recommendation                       Management
Number       Issued                                                                       Target Date
                                                                            Decision
 4-16        3/17/04     Develop and implement procedures to                 5/12/04         9/1/08
                         monitor contractor compliance with the 50
                         percent rule when applicable.
 4-16        3/17/04     Ensure the amount of subcontracting is                 5/12/04      9/1/08
                         reviewed and documented in the contract
                         file for awards of 8(a) and small business
                         set-aside contracts and task orders to small
                         businesses.
 4-16        3/17/04     Revise the SOP on Procurement and Grants               5/12/04      9/1/08
                         Management as soon as possible,
                         incorporate policies to address the
                         outstanding items described above within 6
                         months of the issuance of this report.
  5-12       2/24/05     For all SBA internal and contractor                    4/18/05     4/15/06
                         supported general support systems and
                         major applications, e.g., Egan Mainframe,
                         SBA and Corio UNIX, Network and
                         Windows 2000; Loan Accounting System
                         (LAS), Sybase, Mainframe, Joint
                         Accounting and Administration
                         Management System (JAAMS) Oracle, and
                         related application functions: (1) develop
                         and document policies and procedures
                         clearly outlining what activities should be
                         logged, who should be responsible for
                         reviewing logs, what the logs should be
                         reviewed for, how often logs should be
                         reviewed, and how long logs should be
                         retained; (2) assign responsibility within the
                         Office of the Chief Information Officer for
                         the review of application and general
                         support system security logs; and (3) retain
                         audit logs for a sufficient period of time (at
                         least 90 days).

* These are a subset of the universe of recommendations without final action.
** Recommendation does not have a management decision.




                                                    31
                                               Appendices

                                               Appendix VII
                                Summary of Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2009*

                                                                                   Date of
Report          Date                                                                           Final Action
                                          Recommendation                         Management
Number         Issued                                                                          Target Date
                                                                                  Decision
                           Revise current procedures for classifying
                           loans in the Loan Accounting System to
     8-09      3/23/08                                                               9/3/08      9/30/09
                           ensure that loan currency is not solely based
                           on the next installment due date.
                           Ensure that SBA is in compliance with the
                           1086 agreement by actively monitoring the
                           Fiscal and Transfer Agent’s monthly default
     8-09      3/23/08                                                               9/3/08      3/31/09
                           reports, adhering to all requirements, and
                           taking appropriate action on the reported
                           loans.
                           Modify the 1086 agreement to require lenders
                           to request guaranty purchase when interest is
                           120 days or more past due and seek
     8-09      3/23/08                                                               9/3/08      3/31/09
                           reimbursement from lenders for interest
                           accrued in excess of 120 days on loans SBA
                           purchases directly from the secondary market.
                           Discontinue the practice of including the
                           amount of SBA’s ongoing guaranty fees in the
     8-09      3/23/08                                                               9/3/08      3/30/09
                           purchase payment to the Fiscal and Transfer
                           Agent.
                           Design and implement an Enterprise-wide QA
                           function that fully addresses the risk and
                           scope of the LMAS project and ensures the
     8-13      5/14/08     OCIO can fulfill responsibilities under the               8/26/08     4/30/09
                           Clinger-Cohen Act to provide independent
                           quality assurance and oversight of
                           Information Technology investments.
                           Make cost-effective remediation of
                           mainframe vulnerabilities a priority and
                           ensure that migration of LAS occurs before
     8-13      5/14/08                                                               8/27/08     3/31/09
                           the current mainframe contract expires in
                           2012 to reduce SBA's mainframe costs and
                           timely mitigate associated security risks.

*      These are a subset of the universe of recommendations without final action.
**     Recommendation does not have a management decision.




                                                        32
                                               Appendices

                                              Appendix VII
                                Summary of Significant Recommendations
                                From Prior Semiannual Reporting Periods
                                Without Final Action as of March 31, 2009*

                                                                                   Date of
Report          Date                                                                           Final Action
                                          Recommendation                         Management
Number         Issued                                                                          Target Date
                                                                                  Decision
                           If immediate action is necessary to protect the
                           Government’s interest initiate debarment
     8-16      7/18/08     proceedings for the participant under either              8/11/08     8/30/09
                           SBA’s non-procurement debarment and
                           suspension procedures or the FAR.

*      These are a subset of the universe of recommendations without final action.
**     Recommendation does not have a management decision.




                                                        33
                                     Appendices

                                         Appendix VIII
                           Summary of Significant Recommendations
                            October 1, 2008 through March 31, 2009

Report                                   Date
                   Title                                         Recommendation
Number                                  Issued
                                                   Develop and execute a test strategy to ensure
         SBA’s Implementation of                   that IDMS meets all of the HSPD-12
 9-01    an HSPD-12 Card Issuance       10/6/08    functional requirements, including reading
         System                                    and authenticating the digital certificates on
                                                   identity cards.
                                                   Revise SOP 50 30 6 to require that a review
                                                   be conducted of how prior proceeds were used
                                                   on a sample of disbursements exceeding
                                                   $10,000 to provide the Agency with some
         The Use of Proceeds from                  assurance that borrowers used prior proceeds
 9-06                                   1/15/09
         Gulf Coast Disaster Loans                 appropriately. The SOP should also require
                                                   that the Borrower’s Progress Certification
                                                   form and supporting receipts be reviewed and
                                                   signed by ODA to document that a review
                                                   was made.
                                                   Require site visits or follow-up with vendors
                                                   when questionable invoices, including quotes
                                                   for large dollar amounts with no receipts,
         The Use of Proceeds from
 9-06                                   1/15/09    unsigned certifications or vendor quotes,
         Gulf Coast Disaster Loans
                                                   inadequate certifications, or no official
                                                   documents, are submitted to verify the
                                                   accuracy of what the borrower has reported.
                                                   Recover approximately $2.8 million of
         Audit of the Liquidation
                                        1/30/09    improper payments and liquidation proceeds
 9-08    Process at the National
                                                   from lenders on the 24 loans identified in
         Guaranty Purchase Center
                                                   Appendices IV and V.
                                                   Direct the Center to ensure that charge-off
         Audit of the Liquidation
                                        1/30/09    reviews are properly supervised and all
 9-08    Process at the National
                                                   required documentation is obtained from
         Guaranty Purchase Center
                                                   lenders.
                                                   Revise liquidation recovery rates in SOP 50
         Audit of the Liquidation
                                        1/30/09    51 (2) to reflect the forced sale liquidation
 9-08    Process at the National
                                                   values related to the various types of collateral
         Guaranty Purchase Center
                                                   used to secure SBA loans.
                                                   Further enhance the Center’s newly designed
         Audit of the Liquidation                  portfolio management system to include the
 9-08    Process at the National        1/30/09    appropriate controls and ensure the
         Guaranty Purchase Center                  appropriate resources are assigned to address
                                                   loans needing action.




                                             34
                                      Appendices

                                          Appendix VIII
                            Summary of Significant Recommendations
                             October 1, 2008 through March 31, 2009

Report                                    Date
                    Title                                        Recommendation
Number                                   Issued
                                                    Perform periodic reviews of non-purchased
         Audit of the Liquidation
                                         1/30/09    loans in liquidation when appropriate to
 9-09    Process at the National
                                                    ensure they are removed from the portfolio
         Guaranty Purchase Center
                                                    and their outstanding balances are correct.
                                                    Revise current procedures for verifying an
         Audit of Borrower
                                                    applicant’s primary residence to ensure that a
 9-09    Eligibility for Gulf Coast      3/31/09
                                                    more reliable method is used than that
         Disaster Loans
                                                    provided in the SOP.
                                                    Request remittance from HUD for the
         Audit of Borrower
                                                    $19,000 associated with the Road Home grant
 9-10    Eligibility for Gulf Coast      3/31/09
                                                    that duplicated disaster benefits awarded
         Disaster Loans
                                                    under the SBA loan.
                                                    Revise the sampling design methodology for
                                                    estimating improper payments to ensure that
         SBA’s FY 2007 Improper
                                                    the sample is based on disbursements versus
 9-10    Payment Rate for the            3/26/09
                                                    loan approvals in accordance with OMB
         Disaster Loan Program
                                                    guidance, and employs variable sampling
                                                    procedures.
                                                    Require that a statistician be consulted when
         SBA’s FY 2007 Improper                     developing the sample error rate and
 9-10    Payment Rate for the            3/26/09    projection methodology to ensure that the
         Disaster Loan Program                      estimate derived is statistically valid, as
                                                    required by OMB guidance.
         SBA’s FY 2007 Improper                     Implement a corrective action plan to reduce
 9-10    Payment Rate for the            3/26/09    improper payments in the Disaster Assistance
         Disaster Loan Program                      Loan Program.
                                                    Recalculate the FY 2008 estimate of improper
         SBA’s FY 2007 Improper                     payments and if different from the original
 9-10    Payment Rate for the            3/26/09    estimate of improper payments, provide the
         Disaster Loan Program                      revised estimate to the Acting Chief Financial
                                                    Officer.
         SBA’s FY 2007 Improper                     Report the improper rate calculated by the
 9-10    Payment Rate for the            3/26/09    OIG for FY 2007 to OMB.
         Disaster Loan Program
         SBA’s FY 2007 Improper                     Ensure the correct FY 2008 improper payment
 9-10    Payment Rate for the            3/26/09    estimate is reported to OMB.
         Disaster Loan Program




                                              35
                                     Appendices

                                         Appendix VIII
                           Summary of Significant Recommendations
                            October 1, 2008 through March 31, 2009

Report                                   Date
                   Title                                         Recommendation
Number                                  Issued
                                                   Evaluate whether staffing and process
                                                   improvements introduced after the audit was
         SBA-Serviced Liquidation                  completed have enabled the centers to
 9-12    of Certified Development       3/30/09    complete all required liquidation actions, and,
         Company Loans                             if not, make appropriate staffing and process
                                                   adjustments as necessary to ensure that loans
                                                   are properly liquidated.
                                                   Establish internal controls that ensure that
         Review of SBA’s National
                                                   OBO and DPGM are unable to modify
 9-12    Guaranty Purchase Center       3/31/09
                                                   contracts without the appropriate supporting
         Furniture Contract
                                                   documentation, including a statement of work.
                                                   Revise SOP 00 11 1 to require that COTRs
                                                   submit supporting documentation with their
         Review of SBA’s National
                                                   payment requests, such as a receiving report,
 9-12    Guaranty Purchase Center       3/31/09
                                                   to show that the contractor has delivered the
         Furniture Contract
                                                   goods or services that are being submitted for
                                                   payment.
                                                   Determine whether the $78,856 in invoices
         Review of SBA’s National                  for Task Order #1 – Nashville, TN was paid
 9-12    Guaranty Purchase Center       3/31/09    under the proper contract or purchase order,
         Furniture Contract                        and if a duplicate payment was made, recover
                                                   any funds from the contractor as necessary.
                                                   Determine whether the contractor performed
         Review of SBA’s National                  the work supporting SBA’s $160,174 offset
 9-12    Guaranty Purchase Center       3/31/09    and whether the invoices were already paid.
         Furniture Contract                        Seek reimbursement where work was not
                                                   performed or duplicate payments were made.
         Review of SBA’s National                  Terminate SBA’s contractual relationship
 9-12    Guaranty Purchase Center       3/31/09    with the company involved.
         Furniture Contract
         Review of SBA’s National                  Initiate proceedings to debar the company
 9-12    Guaranty Purchase Center       3/31/09    involved from receiving future Government
         Furniture Contract                        contracts.
                                                   Determine whether actions taken by the
         Review of SBA’s National                  contracting officers warranted unsatisfactory
 9-12    Guaranty Purchase Center       3/31/09    performance, and require disciplinary actions,
         Furniture Contract                        including terminating their contract authority,
                                                   if appropriate.




                                             36
                                                Appendices

                                             Appendix IX
                    Events/Activities Where SBA Used its Cosponsorship Authority*
                                     Small Business Act, Section 4(h)
                               October 1, 2008 through March 31, 2009


Name/Subject          Event Start       Event End
                                                         Location of Event            Name(s) of Cosponsor(s)
  of Event               Date             Date
SBA Lenders            April 21,         April 21,                                      Charlotte Chamber of
                                                            Charlotte, NC
 Conference              2009             2009                                               Commerce
                                                                                        The Cleveland Clinic
                                                                                    Foundation, Urban League of
                                                                                     Greater Cleveland SBDC,
NEO Connects           TBA 2009                             Cleveland, OH
                                                                                     Commission on Economic
                                                                                    Inclusion, Greater Cleveland
                                                                                             Partnership
                                                                                    City of Los Angeles, Mayor's
                                                                                       Office of Housing and
 MED Week              March 18,         March 18,                                  Economic Development, US
                                                          Los Angeles, CA
Award Program           2009              2009                                        Department of commerce
                                                                                          Minority Business
                                                                                        Development Agency
Series: GC/BD
Workshops &             March 1,         December                                    Rhode Island Procurement
                                                            Providence, RI
 Matchmaker              2009            31, 2009                                   Technical Assistance Center
    Events
                                                                                        New York Business
                                                                                     Development Corporation,
                                                                                   University at Albany thru the
 2009 Albany           September        September
                                                               Albany, NY          Small Business Development
 Matchmaker             10, 2009         10, 2009
                                                                                   Center, The Business Review,
                                                                                   The Albany-Colonie Chamber
                                                                                           of Commerce
                                                                                       Ohio Department of
                                                                                   Development, Ohio Business
    2009 Ohio                                                                       Connection, Southern Ohio
                       March 18,         March 18,
     Business                                                  Dayton, OH          Procurement Outreach Center,
                        2009              2009
    Matchmaker                                                                     Aeronautical Systems Center
                                                                                      Small Business Office,
                                                                                     Defense Logistics Agency
 Annual SBA
Small Business          May 22,           May 22,
                                                               Denver, CO           The Denver Business Journal
 Newspaper               2009              2009
    Insert
*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          37
                                               Appendices

                                         Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                              October 1, 2008 through March 31, 2009

Name/Subject of         Event Start       Event End
                                                            Location of Event         Name(s) of Cosponsor(s)
     Event                 Date             Date
 Small Business
                          May 15,           May 15,                                       Puerto Rico Bankers
 Week Breakfast                                                 San Juan, PR
                           2009              2009                                             Association
Awards Ceremony
 Small Business
 Expo, Business
                                                                                       SCORE Buffalo Niagara
  Matchmaker,
                       May 6, 2009       May 6, 2009            Buffalo, NY           Chapter #45, Business First
 Small Business
                                                                                                 Inc.
 Week Awards
   Luncheon
                                                                                        Orange County SBDC,
    Tiger Team
                                           December                                      Institute for Women
    Assessment          March 2009                             Santa Ana, CA
                                           31, 2009                                     Entrepreneurs, SCORE
     Program
                                                                                             Chapter 114
                          May 11,           May 11,
 Export Trade
                        June 8, July      June 8, July
   Assistance
                        13, August        13, August
Partnership: The                                           Newport Beach, CA           U.S. Commercial Service
                            10,               10,
New Basic Guide
                         September         September
  to Exporting
                          14, 2009          14, 2009
SBA Tri-County
                                                                                         AmPac Tristate CDC,
  Faith Based            October 8,       October 8,
                                                                Ontario, CA             Inland Empire Women's
   Financing               2009             2009
                                                                                            Business Center
  Conference
                       April 10, 24;     April 10, 24;
  Series: Youth
                        May 8, 22;        May 8, 22;
 Entrepreneurial                                               Baltimore, MD               Woodlawn Library
                       June 12, 26,      June 12, 26,
   Workshop
                          2009              2009
                                                                                        Rose State College thru
                                                                                      SBDC, The Journal Record
Oklahoma Small
                                                                                         Publishing Company,
Business Awards           April 7,          April 7,
                                                              Midwest City, OK         Oklahoma Center for the
   Luncheon                2009              2009
                                                                                       Advancement of Science
    Program
                                                                                      and Technology, Oklahoma
                                                                                       Department of Commerce
                                          November
      E-200             April 2009                              Portland, OR                   Oregon DO
                                            2009
*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet been
     held. This information has not been verified by the OIG.




                                                         38
                                              Appendices

                                             Appendix IX
                  Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                             October 1, 2008 through March 31, 2009

Name/Subject        Event Start       Event End          Location of
                                                                                  Name(s) of Cosponsor(s)
   of Event            Date             Date               Event
 21st Annual
  High-Tech           March 3,         March 4,          Los Angeles,
                                                                             Jet Propulsion Laboratory/NASA
Conference for         2009             2009                 CA
Small Business
                                       November          Jacksonville,
    E-200            April 2009                                                       North Florida DO
                                         2009                 FL
 SBA's 2009
Small Business        May 19,           May 19,        West Hartford,
                                                                                     Event Management
   Awards              2009              2009               CT
  Reception
                                       November
    E-200            April 2009                           Detroit, MI                    Michigan DO
                                         2009
Small Business
                       May 4,           May 4,
 Excellence                                             Albany, NY;          New York Business Development
                     2009; May        2009; May
   Award                                                Syracuse, NY                  Corporation
                      8, 2009          8, 2009
 Recognition
                                      November
    E-200            April 2009                        Des Moines, IA                  Des Moines DO
                                         2009
                                      November
    E-200            April 2009                          Boston, MA                       Boston DO
                                         2009
                     March 19,        March 19,
SBA/IRS Small
                     June 2009,       June 2009,                               U.S. Department of Treasury -
  Business                                              Columbia, SC
                       August           August                                   Internal Revenue Service
  Webinar
                        2009             2009
 Invent Your
    Future           March 31,          April 1,
                                                       Santa Clara, CA         Invent Your Future Enterprises
Conference for        2009               2009
   Woman
                                       November
    E-200            April 2009                          Atlanta, GA                      Georgia DO
                                         2009
                                       November
    E-200            April 2009                           Dallas, TX                Dallas/Fort Worth DO
                                         2009
 New Mexico
Small Business
                                                        Albuquerque,         Santa Fe Community College thru
Week Awards         May 5, 2009      May 5, 2009
                                                            NM                      New Mexico SBDC
 Celebration
    2009
*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.



                                                        39
                                               Appendices

                                           Appendix IX
                    Events/Activities Where SBA Used its Cosponsorship Authority*
                                     Small Business Act, Section 4(h)
                               October 1, 2008 through March 31, 2009

Name/Subject         Event Start       Event End
                                                        Location of Event            Name(s) of Cosponsor(s)
  of Event              Date             Date
                                       November
     E-200            April 2009                         Albuquerque, NM                  Albuquerque DO
                                         2009
                                       November
     E-200            April 2009                           Memphis, TN                     Tennessee DO
                                         2009
                                                                                       New York Business
                                                                                    Development Corporation,
Operation: Start      March 19,         March 19,
                                                           Syracuse, NY              Onondaga Community
 up and Grow           2009              2009
                                                                                    College, Onondaga SBDC,
                                                                                           M&T Bank
                       March 19,        March 19,
                       April 16,        April 16,
                        May 21,          May 21,
                        June 18,         June 18,
                      September        September
Small Business                                                                    The Duchess County Regional
                      17, October      17, October        New York, NY
 Workshops                                                                           Chamber of Commerce
                          15,              15,
                       November         November
                          19,              19,
                       December         December
                       31, 2009         31, 2009
Small Business
 Series: How to
Start a Business,
                                                                                     The New David Baptist
How to Finance       March 14,         March 14,
                                                                                      Church of Christ, The
Your Business,        April 18,         April 18,
                                                           Baltimore, MD           Transforming East Baltimore
    Minority         May 2, June       May 2, June
                                                                                    Community Development
  Certification,      13, 2009          13, 2009
                                                                                           Corporation
    Meet The
  Professionals
   Roundtable
*    The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
     been held. This information has not been verified by the OIG.




                                                         40
                                                Appendices

                                             Appendix IX
                    Events/Activities Where SBA Used its Cosponsorship Authority*
                                     Small Business Act, Section 4(h)
                               October 1, 2008 through March 31, 2009

Name/Subject          Event Start Event End
                                                         Location of Event            Name(s) of Cosponsor(s)
  of Event                Date          Date
                      Jan. 23, Feb. Jan. 23, Feb.
                       27, March     27, March
                      27, April 24, 27, April 24,
                        May 22,       May 22,
 Business For           June 26,      June 26,
                                                           Charleston, WV            SCORE, The State Journal
  Breakfast             July 24,      July 24,
                        Aug. 28,      Aug. 28,
                        Sept. 25,     Sept. 25,
                        Oct. 23,      Oct. 23,
                          2009          2009
  The Black
   Business            March 24,         March 24,                                     Chase, Alpha Phi Alpha
                                                               Detroit, MI
  Conference            2009              2009                                             Fraternity, Inc.
     2009
    Annual
Celebration of                                                                         Small Business Awards
                      May 8, 2009      May 8, 2009         Richmond, VA
Small Business                                                                            Foundation, Inc
  in Virginia
    Federal
                         April 3,         April 3,                                    Colegio de Ingenieros y
 Contracting                                                 San Juan, PR
                          2009             2009                                     Agrimensores de Puerto Rico
 Matchmaking
                        May 11,          May 11,
Small Business                                                                         Small Business Week of
                       2009; May        2009; May           St. Louis, MO
 Week 2009                                                                              Eastern Missouri, Inc.
                        14, 2009         14, 2009
     Business
                      May 1, 2009      May 1, 2009              Vermont                      Vermont DO
    Matchmaker
                                                                                   Pacific Business News, Altres
 Surviving the
                      February 26, February 26,                                      HR, Hilton Waikki Prince
  Economic                                                   Honolulu, HI
                         2009         2009                                            Kuhio, the Chamber of
    Storm
                                                                                       Commerce of Hawaii
  5th Annual                                                                         Southern University Rural
  Connecting                                                                        Small Business Center thru
Businesses With        March 24,         March 24,                                 Southern University and A&M
                                                          Baton Rouge, LA
   Contracts            2009              2009                                           College, Louisiana
 Procurement                                                                          Procurement Technical
  Conference                                                                             Assistance Center
*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          41
                                              Appendices

                                         Appendix IX
                  Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                             October 1, 2008 through March 31, 2009

Name/Subject        Event Start       Event End
                                                       Location of Event            Name(s) of Cosponsor(s)
  of Event             Date              Date
                    January 27,       January 27,
                    February 3,       February 3,                                       Federal Bureau of
Cyber Security                                            Mangilao, GU,
                    February 5,       February 5,                                    Investigation, National
  Is Good                                                 Wailuku, Hilo,
                      2009 (6           2009 (6                                     Institute of Standards and
  Business                                                  Maui, HI
                     additional        additional                                           Technology
                    dates TBA)        dates TBA)
   SBA/IRS
Telephone/Inter     January 22,       January 22,                                U.S. Department of Treasury –
                                                          Charlotte, NC
    net Tax            2009              2009                                      Internal Revenue Service
  Workshop
                    January 24,      January 24,
                    February 10,     February 10,
                    February 17,     February 17,
                    February 24,     February 24,
 Straight Talk        March 3,         March 3,
                                                                                    SCORE Buffalo Niagara -
2009 & Straight      March 10,        March 10,              Buffalo, NY
                                                                                        Chapter #45
  Talk Series        March 17,        March 17,
                     March 24,        March 24,
                     March 31,        March 31,
                      April 7,         April 7,
                       2009.            2009.
                     January 8,       January 8,
                    January 26;      January 26;                                   Southern State Community
  SBA Online
                    February 8,      February 8,                Web                College Enterprise Center,
Training Course
                    February 23,     February 23,                                   WorkForce Connection
                       2009             2009
                                                                                 City of Burlington Community
   Business         January 15,       January 15,
                                                         Burlington, VT           and Economic Development
 Resource Day          2009              2009
                                                                                             Office

*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.




                                                        42
                                                Appendices

                                           Appendix IX
                    Events/Activities Where SBA Used its Cosponsorship Authority*
                                     Small Business Act, Section 4(h)
                               October 1, 2008 through March 31, 2009

Name/Subject          Event Start       Event End
                                                         Location of Event            Name(s) of Cosponsor(s)
  of Event               Date             Date
                                                                                     South Carolina Chamber of
                                                                                     Commerce, Small Business
                                                                                   Development Center of South
                                                                                      Carolina, South Carolina
                                                                                     Department of Commerce,
                                                                                      ECI/Find New Markets,
Salute to Small         April 29,        April 29,                                    SCORE, South Carolina
                                                            Columbia, SC
   Business              2009             2009                                        Manufacturing Extension
                                                                                     Partnership, South Carolina
                                                                                     Women’s Business Center,
                                                                                         U.S. Department of
                                                                                         Agriculture – Rural
                                                                                   Development, U.S. Department
                                                                                     of Commerce, SC Launch!
                                                                                    Small Business Development
                                                                                      Center of South Carolina,
                      December 3,      December 3,            Florence,
                                                                                      SCORE, South Carolina
 SBA/USDA               9, 2008;         9, 2008;            Columbia,
                                                                                     Women’s Business Center,
Lender Forums          January 8,       January 8,          Charleston &
                                                                                         U.S. Department of
                        15, 2009         15, 2009           Greenville, SC
                                                                                         Agriculture – Rural
                                                                                            Development
    Closing
  Reception,
                       November          November
    Global                                                 Washington, DC            The Public Forum Institute
                       21, 2008          21, 2008
Entrepreneurshi
 p Week/USA
                       November          November
    Joint Event                                            Washington, DC                       MBDA
                       12, 2008          12, 2008
                                                                                        Community CPA &
                                                                                      Associates, Inc., Drake
 Immigrant
                       November          November                                   University, Iowa Department
Entrepreneurs                                              Des Moines, IA
                       15, 2008          15, 2008                                   of Economic Development,
 Conference
                                                                                     Iowa Women's Enterprise
                                                                                               Center

*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          43
                                              Appendices

                                          Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                              October 1, 2008 through March 31, 2009

Name/Subject        Event Start       Event End
                                                       Location of Event            Name(s) of Cosponsor(s)
   of Event            Date             Date
 Pennsylvania
Small Business
Success Stories:     November          November                                      Office of Senator Arlen
                                                         Philadelphia, PA
How to Survive       17, 2008          17, 2008                                              Specter
 & Thrive in a
  Slowdown

*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.




                                                        44
                                       Appendices

                                         Appendix X
                                  Legal Actions Summary
                           October 1, 2008 through March 31, 2009

                                                                                       Investigated
State   Program       Alleged Violation(s) Prosecuted             Legal Action
                                                                                       Jointly With
CA        BL      The owner of two cowhide companies          Owner sentenced to 12    FBI
                  falsified purchase orders, invoices,        months and one day in
                  contracts, financial statements, and tax    prison followed by 5
                  returns in order to receive more cash       years supervised
                  advances from his $2 million SBA            release.
                  Export Working Capital line of credit.
                  The additional funds were used to pay
                  off debts from a failed seafood import
                  company started by the owner.
CA        BL      An individual allegedly used a false        Individual charged in    FBI, SSA
                  identity to obtain a $100,000 SBA           state court.             OIG, LASD
                  Express loan for a business that never
                  existed.
CA        BL      Two individuals were principals in a        One individual was       LAPD,
                  sophisticated identity theft ring. They     sentenced to 28          CDOI,
                  assumed fictitious identities and applied   months in prison, 2      DHS/ICE,
                  for various types of credit, including      years supervised         USPIS,
                  SBA Express loans, conventional and/or      release, and $27,000     SSA/OIG
                  residential loans, and credit cards.        in restitution. The
                                                              other was sentenced to
                                                              4 months in prison, 4
                                                              months home
                                                              detention, 5 years
                                                              supervised release,
                                                              and $46,998 in
                                                              restitution.
CO        BL      The part owner of a construction            Part owner indicted.     FBI
                  company allegedly hid his criminal
                  history in order to qualify for two SBA-
                  guaranteed loans totaling $1.35 million.
                  Criminal history records revealed that he
                  had previously pled guilty to
                  embezzlement and a third degree assault
                  charge.




                                                45
                                       Appendices

                                          Appendix X
                                   Legal Actions Summary
                            October 1, 2008 through March 31, 2009

                                                                                         Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                         Jointly With
CO        BL      The former office manager for a plastic      Office manager            DDAO
                  surgeon used the doctor’s personal           sentenced previously.
                  information and signature stamp without      During this reporting
                  his authorization to fraudulently obtain     period, restitution of
                  two SBA-guaranteed Express loans,            $1,736,514 was
                  totaling $150,000, and an additional         ordered. This amount
                  $180,948 in non-SBA loans.                   includes restitution
                                                               payable to SBA, as
                                                               well as other victims
                                                               affected by the fraud.
 FL       DL      The president of a consulting firm           President pled guilty     None
                  claimed that her company had suffered        and was sentenced to 1
                  economic injury from Hurricane Wilma         month home
                  and received a $95,000 SBA disaster          detention, 3 years
                  business loan to be used as working          probation, and
                  capital for the business. Instead of         $95,000 in restitution.
                  injecting the funds into the business, she
                  used a substantial portion of the money
                  at gaming establishments.
 IA       BL      An individual enlisted “front” borrowers     Individual pled guilty.   FBI
                  and provided false and fraudulent
                  documentation on behalf of the
                  borrowers in order to influence the
                  approval of three loans by a non-bank
                  lender. The loans, one SBA-guaranteed
                  and two direct, totaled over $4 million.
 IL       BL      The former owner of a finance company        Former owner pled         FBI
                  provided fraudulent equity injection         guilty.
                  documentation to a lender in order to
                  influence the approval of a $1.35 million
                  SBA-guaranteed loan for one of his
                  companies and at least 20 SBA-
                  guaranteed loans for other businesses.
                  Most of these loans involved the
                  purchase of gas stations and convenience
                  stores.




                                                46
                                       Appendices

                                         Appendix X
                                  Legal Actions Summary
                           October 1, 2008 through March 31, 2009

                                                                                         Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                         Jointly With
 IL       GC      A former associate director of a federal     Criminal information      VA/OIG,
                  government outpatient pharmacy and his       filed against the         DCIS, USSS
                  wife created a company to provide            couple and their
                  temporary pharmacists to the                 company.
                  government. The company received
                  SBA certification as a woman-owned,
                  minority-owned, and 8(a) program
                  participant. The couple allegedly
                  allowed other companies to masquerade
                  as their company and qualify for set-
                  aside contracts. This scheme resulted in
                  the government being billed for more
                  than $8 million in services.
 IL       BL      An individual concealed a felony arrest      Individual pled guilty.   None
                  and pending theft/fraud charges in order
                  to qualify for two SBA-guaranteed loans
                  totaling $860,000 for the purchase of two
                  construction-related businesses. He also
                  falsified the required equity injections
                  for both loans.
 IL       BL      An individual conspired with a loan          Individual pled guilty    None
                  agent to falsely represent to the SBA that
                  he possessed adequate equity injection
                  funds to qualify for $2,540,000 in SBA-
                  guaranteed and conventional loans to
                  purchase a hotel property. In actuality,
                  the individual formed and used a “shell”
                  company to obtain loan funds to secretly
                  consolidate and refinance delinquent
                  debts and avoid foreclosure of business
                  properties and his personal residence.
KY        GC      A business consultant submitted two          Business consultant       DCIS
                  HUBZone applications to SBA on behalf        sentenced to 2 years
                  of a company. The applications               probation and a $1,000
                  contained false statements concerning        fine.
                  the address of the company and the
                  number of employees living in a
                  HUBZone. The company
                  subsequently received a $1.2 million
                  government contract based on its
                  HUBZone status.


                                                47
                                       Appendices

                                         Appendix X
                                  Legal Actions Summary
                           October 1, 2008 through March 31, 2009

                                                                                        Investigated
State   Program       Alleged Violation(s) Prosecuted             Legal Action
                                                                                        Jointly With
LA        DL      An individual provided altered building     Individual sentenced      None
                  permits in order to induce SBA to release   to 4 months in prison,
                  Hurricane Katrina disaster funds for a      4 months home
                  $19,500 home loan and a $49,600             confinement, and
                  business loan. In addition, he used loan    restitution of $69,100.
                  proceeds to purchase a new home, car,
                  and boat.
LA        DL      A business owner conspired with his         Business owner            USSS
                  CPA to fraudulently obtain disaster loans   sentenced to 51
                  totaling approximately $3 million and       months in prison, 3
                  then destroyed a forged SBA financial       years supervised
                  document in order to impede the             release, and $505,008
                  investigation. Due to investigative         in restitution, to be
                  efforts, only $5,000 was actually           paid jointly and
                  dispersed.                                  severally with the
                                                              CPA, who was
                                                              previously sentenced.
LA        DL      An individual and his wife submitted        Husband and wife          DHS/OIG,
                  fraudulent receipts in support of an SBA    pled guilty.              HUD/OIG
                  disaster home loan and an SBA disaster
                  business loan totaling approximately
                  $220,000.
LA        DL      An individual is alleged to have used       Individual indicted.      HUD/OIG
                  $46,000 of fraudulently acquired
                  Louisiana Road Home funds to partially
                  pay off an SBA loan in the amount of
                  $105,000.
LA        DL      An individual falsely claimed her           Individual sentenced      DHS/OIG
                  primary residence to be in an area          to 5 years probation,
                  damaged by Hurricane Katrina;               200 hours community
                  fraudulently represented that building      service, a $15,000
                  permits authorized repairs; and submitted   fine, and total
                  fictitious repair receipts and fraudulent   restitution of $61,960.
                  residential leases. She was approved for
                  a home loan of $125,600 and a business
                  loan of $291,600; however, only a total
                  of $60,000 was disbursed.




                                               48
                                       Appendices

                                         Appendix X
                                  Legal Actions Summary
                           October 1, 2008 through March 31, 2009

                                                                                        Investigated
State   Program       Alleged Violation(s) Prosecuted             Legal Action
                                                                                        Jointly With
LA        DL      An individual applied for two SBA           Individual pled guilty    HUD/OIG
                  disaster loans to repair damages related    and was sentenced to 2
                  to Hurricane Katrina: a home loan for her   years probation and
                  primary residence and a business loan for   restitution of $67,597.
                  her rental properties. She only qualified
                  for one of the loans and chose the loan
                  for her primary residence because the
                  interest rate was lower. She then used
                  part of the $150,000 home loan to make
                  repairs to her rental properties.
MD        GC      Multiple individuals conspired to violate   The disadvantaged         EPA/CID,
                  SBA requirements relating to control and    owner of one company      NCIS,
                  ownership of firms participating in the     was sentenced to 2        IRS/CID,
                  SBA 8(a) program. The owner of an 8(a)      months in jail, 3 years   FBI
                  asbestos abatement company failed to        probation, and a
                  disclose that two non-disadvantaged         $100,000 fine. One of
                  individuals were providing critical         the non-disadvantaged
                  bonding, insurance, financial support,      co-conspirators was
                  and control over the company.               sentenced to 18
                                                              months in prison, 3
                                                              years supervised
                                                              release, a $400,000
                                                              fine, and $300,000 in
                                                              restitution. The other
                                                              was sentenced to 30
                                                              days in prison, 6
                                                              months home
                                                              confinement, 18
                                                              months supervised
                                                              release, and a $20,000
                                                              fine. Another 8(a)
                                                              company was
                                                              sentenced to 3 years
                                                              probation and a
                                                              $75,000 fine.
MD        BL      The owner of a custom cycle shop            Owner indicted and        None
                  submitted false documentation regarding     pled guilty.
                  the source of the $30,000 cash injection
                  required to support his application for a
                  $120,000 SBA-guaranteed loan.



                                                49
                                       Appendices

                                          Appendix X
                                   Legal Actions Summary
                            October 1, 2008 through March 31, 2009

                                                                                          Investigated
State   Program       Alleged Violation(s) Prosecuted               Legal Action
                                                                                          Jointly With
 MI       BL      A bank employee issued a $1,680,000           Bank employee             USSS
                  cashier’s check based on a non-sufficient     sentenced to 9 months
                  funds credit card check written by a bank     home confinement and
                  customer. This unfunded check was             5 years probation.
                  used by co-conspirators to close on the
                  purchase of a house with the intent to
                  promptly resell or “flip” the property to a
                  straw buyer.
 MI       BL      A former executive vice president of an       Former executive vice     USSS
                  SBA non-bank lender conspired with            president sentenced to
                  loan brokers and others to fraudulently       10 years in prison, 2
                  qualify loan applicants for SBA-              years supervised
                  guaranteed loans, primarily for the           release, and over
                  purchase of gas stations. At least 89         $33.7 million in
                  fraudulent loans, totaling approximately      restitution.
                  $85 million, were issued before the fraud
                  was discovered and the office closed.
                  The scheme involved using false and
                  counterfeit documents to verify the
                  borrowers’ required equity injections.
 MI       BL      An individual falsely represented that he     Individual pled guilty.   USSS
                  had paid $510,000 as a cash injection for
                  two SBA-guaranteed loans totaling
                  $1,350,000. The loans were being used
                  for the purchase of two gas stations.
 MI       BL      When applying for a $80,070 SBA               Individual pled guilty.   FBI
                  Express loan, an individual falsely
                  indicated that she had never been arrested,
                  charged, or convicted of any crime other
                  than a minor motor vehicle violation. In
                  reality, she had four prior drug
                  convictions and had been arrested and
                  charged with passing bad checks.
MS        DL      An individual caused physical damage to       Individual sentenced      USPIS, FBI
                  his own residence in order to                 to 16 months
                  fraudulently receive SBA disaster             incarceration, 36
                  assistance of $40,000.                        months supervised
                                                                release, and $49,641
                                                                in restitution.




                                                50
                                        Appendices

                                          Appendix X
                                   Legal Actions Summary
                            October 1, 2008 through March 31, 2009

                                                                                         Investigated
State   Program       Alleged Violation(s) Prosecuted               Legal Action
                                                                                         Jointly With
MS        DL      A husband and wife received $152,000 in       Couple indicted.         HUD/OIG,
                  SBA disaster relief funds based on a claim                             MSAO,
                  for Hurricane Katrina damages to a                                     DHS/OIG,
                  property they alleged to be their primary                              HHS/OIG
                  residence.
MS        DL      An individual claimed her primary             Wife sentenced to 24     DHS/OIG,
                  residence was in Bay St. Louis, MS,           months in prison and     HUD/OIG,
                  when she was actually living in Houston,      60 months supervised     USDA/OIG
                  TX. She and her husband received              release. Husband         MSAO
                  $80,600 in Hurricane Katrina disaster         sentenced to 4 months
                  assistance from the SBA and $11,000           in prison, 4 months
                  from FEMA.                                    home confinement,
                                                                and 36 months
                                                                supervised release.
                                                                Wife ordered to pay
                                                                restitution of
                                                                $116,504; of that
                                                                amount $91,890 is to
                                                                be paid jointly and
                                                                severally with her
                                                                husband.
NY        DL      An individual assisted the former owner       Individual sentenced     USPIS
                  of an automotive business to fraudulently     to 3 months in prison
                  negotiate an $86,200 two-party check,         and 5 years supervised
                  which was intended to pay off creditors.      release.
                  The check was one of several payments
                  from a $646,900 SBA disaster loan that
                  the owner received for economic injuries
                  sustained after the 2001 terrorist attacks.
NY        BL      An individual used a false Social             Individual sentenced     FBI
                  Security number when applying for two         to 37 months in prison
                  SBA business loans totaling over $1.6         and ordered to pay
                  million. He also failed to disclose his       $1,135,082 in
                  outstanding federal and state tax liens.      restitution.
NY        BL      Members of an organized group of              Two individuals pled     USPIS
                  foreign nationals obtained credit cards       guilty.
                  and loans, including SBA loans totaling
                  $150,000, from various financial
                  institutions using false identities,
                  documents, and businesses.



                                                 51
                                       Appendices

                                         Appendix X
                                  Legal Actions Summary
                           October 1, 2008 through March 31, 2009

                                                                                        Investigated
State   Program      Alleged Violation(s) Prosecuted              Legal Action
                                                                                        Jointly With
TX        BL      A loan broker, a corporation he created,    Four individuals and      FBI
                  and his business associate are charged      the corporation
                  with conspiring with two bank               indicted.
                  employees (a husband and wife) to
                  influence the award of a $980,000 SBA-
                  guaranteed loan to purchase three
                  convenience stores. The loan broker had
                  wanted to buy only one of the stores, but
                  they were not being sold individually.
                  He recruited two additional borrowers to
                  purchase the three stores under another
                  name, allegedly knowing that the
                  borrowers were not able to pay the
                  required capital injection.
TX        BL      The president of a slaughtering business    President pled guilty     FBI
                  used false representations and documents    and was sentenced to
                  to convince numerous lenders that he had    37 months in prison, 5
                  sufficient collateral and income to repay   years supervised
                  $1,236,500 in SBA-guaranteed loans and      release, a $10,000
                  $1,712,000 in non-SBA loans.                fine, and $2,363,291
                                                              in restitution.
TX        BL      Four individuals conspired to receive a     Four individuals          FBI
                  $1 million SBA-guaranteed loan to           indicted.
                  finance the purchase of a convenience
                  store. They allegedly represented that
                  equity injection funds had been received
                  at closing from the borrower when in
                  fact they knew no money was
                  exchanged.
TX        DL      An individual submitted a disaster loan     Individual pled guilty.   DHS/ATF,
                  application to SBA on behalf of a                                     DHS/OIG
                  seafood company falsely claiming that
                  the company had sustained $2.8 million
                  in disaster damage resulting from
                  Hurricane Rita.
VA        BL      A former grocery store owner used her       Former owner pled         None
                  home to secure a $690,000 SBA-              guilty and was
                  guaranteed loan. After the loan was         sentenced to 2 years
                  dispersed, she arranged for a fraudulent    probation and
                  release of lien to be filed. She then       $188,332 in
                  refinanced her home and received a cash     restitution.
                  payout of approximately $158,000.

                                               52
                                           Appendices

                                             Appendix X
                                      Legal Actions Summary
                               October 1, 2008 through March 31, 2009

                                                                                             Investigated
 State   Program         Alleged Violation(s) Prosecuted              Legal Action
                                                                                             Jointly With
  WA        SB       A now defunct construction company           President sentenced to     FBI, NICB
                     obtained SBA surety bonds in order to        30 days in a residential
                     perform public works contracts for state     re-entry center, 90
                     agencies and city municipalities. The        days home
                     president of the company falsely stated      confinement, 5 years
                     that he had paid his subcontractors and      supervised release,
                     suppliers and that his company was out       and restitution of
                     of funds when, in fact, he was diverting     $197,566.
                     contract proceeds of about $87,000 to his
                     personal use.



Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Section 8(a)
Business Development; SB=Surety Bond Guarantee

Joint-investigation Federal Agency Acronyms: CDOI=California Department of Insurance; DCIS=Defense
Criminal Investigative Service; DDAO=Denver District Attorney’s Office; DHS/ATF=Department of Homeland
Security/Alcohol, Tobacco, Firearms, and Explosives; DHS/ICE=Department of Homeland Security/Immigration
and Customs Enforcement; DHS/OIG=Department of Homeland Security/Office of Inspector General;
EPA/CID=Environmental Protection Agency/Criminal Investigations Division; FBI=Federal Bureau of
Investigation; HHS/OIG=Health and Human Services/OIG; HUD/OIG=Housing and Urban Development/OIG;
IRS/CID=Internal Revenue Service/CID; LAPD=Los Angeles Police Department; LASD=Los Angeles Sherriff’s
Department; MSAO=Mississippi State Auditor’s Office; NCIS=Naval Criminal Investigative Service;
NICB=National Insurance Crime Bureau; SSA/OIG=Social Security Administration/OIG; USDA/OIG=U.S.
Department of Agriculture/OIG; USPIS=United States Postal Inspection Service; USSS=United States Secret
Service; VA/OIG=Department of Veterans Affairs/OIG




                                                    53
                                           Appendices

                                            Appendix XI
                                    Small Business Administration
                                     Office of Inspector General

The OIG has four divisions that perform the key functions described.

       The Auditing Division performs financial, information technology and other mandated audits,
        program performance reviews, and internal control assessments, and oversees audits by
        contractors to promote the economical, efficient, and effective operation of SBA programs.

       The Investigations Division manages a program to detect and deter illegal and/or improper
        activities involving SBA programs, operations, and personnel. The criminal investigations staff
        carries out a full range of traditional law enforcement functions. The security operations staff
        ensures that all Agency employees have the appropriate background investigations and security
        clearances for their duties. They also conduct the name check program, which provides SBA
        officials with character-eligibility information on loan applicants and other potential program
        participants.

       The Counsel Division provides legal and ethics advice to all OIG components, represents the
        OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
        enforcement matters, processes subpoenas, responds to Freedom of Information and Privacy Act
        requests, and reviews and comments on proposed Agency policies, regulations, legislation, and
        procedures.

       The Management and Policy Division provides business support (e.g., budget/financial
        management, human resources, information technology, and procurement) for the various OIG
        functions, coordinates the preparation of the Semiannual Report to Congress and the Report on
        SBA’s Management Challenges, and develops OIG strategic and performance plans.

The OIG is headquartered in Washington, DC, and has field staff located in Atlanta, GA; Chicago, IL;
Dallas/Fort Worth, TX; Detroit, MI; Denver, CO; Herndon, VA; Houston, TX; Kansas City, MO;
Los Angeles, CA; Miami, FL; New Orleans, LA; New York, NY; Philadelphia, PA; Tacoma, WA; and
Washington, DC.

An organization chart for the OIG can be found on the next page.




                                                   54
                                                                      Appendix XI
                                                              Small Business Administration
                                                               Office of Inspector General


                                                                          Inspector
                                                                           General                                         Counsel Division

                                                                      Deputy Inspector
                                                                         General




           Auditing Division                                                               Investigations Division                         Management and Policy
                                                           Security Operations
                                                                                                                                                 Division
55




                                 Business Development
      Credit Programs
                                   Programs Group
          Group                                                                  Eastern Region          Central Region           Southern Region      Western Region

                                    Washington, DC
         Atlanta, GA
                                                                                   Atlanta, GA             Chicago, IL               Houston, TX          Denver, CO


         Chicago, IL            Financial Management                               Herndon, VA                                     New Orleans, LA
                                     & IT Group                                                             Dallas, TX                                  Los Angeles, CA


        Herndon, VA                                                                 Miami, FL
                                    Washington, DC                                                         Detroit, MI                                   Tacoma, WA


       Los Angeles, CA                                                                                   Kansas City, MO
                               Disaster Assistance Group                          New York, NY


       Washington, DC
                                 Dallas/Fort Worth, TX                           Philadelphia, PA


                                   New Orleans, LA
     Recovery Oversight                                                          Washington, DC
          Group
                                   Washington, DC

      Washington, DC
                           Make A Difference!

  To promote integrity, economy, and efficiency, we encourage you to report instances of
             fraud, waste, or mismanagement to the SBA OIG HOTLINE.*




                                      Online:
                                 http://www.sba.gov/ig/




                                        Call:
                               1-800-767-0385 (Toll Free)




                                Write or Visit:
                           U.S. Small Business Administration
                               Office of Inspector General
                                 Investigations Division
                            409 Third Street, SW. (5th Floor)
                                 Washington, DC 20416




*Upon request, your name will be held in confidence.
